<html>
<title> - IMPACT OF PROPOSED LEGISLATION ON THE DISTRICT OF COLUMBIA'S GUN LAWS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 IMPACT OF PROPOSED LEGISLATION ON THE DISTRICT OF COLUMBIA'S GUN LAWS 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2008

                               __________

                           Serial No. 110-214

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-579 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 8, 2008................................     1
Statement of:
    Lanier, Cathy, chief, District of Columbia Metropolitan 
      Police Department; Phillip D. Morse, Sr., chief, U.S. 
      Capitol Police; and Kevin C. Hay, deputy chief, U.S. Park 
      Police; and Robert Campbell, director of security, 
      Washington Nationals Baseball Club.........................    13
        Campbell, Robert.........................................    32
        Hay, Kevin C.............................................    26
        Lanier, Cathy............................................    13
        Morse, Phillip D., Sr.,..................................    23
Letters, statements, etc., submitted for the record by:
    Hay, Kevin C., deputy chief, U.S. Park Police, prepared 
      statement of...............................................    28
    Lanier, Cathy, chief, District of Columbia Metropolitan 
      Police Department, prepared statement of...................    17
    Morse, Phillip D., Sr., chief, U.S. Capitol Police, prepared 
      statement of...............................................    24
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
    Memo dated September 9, 2008.................................    10
    Prepared statement of........................................     4


 IMPACT OF PROPOSED LEGISLATION ON THE DISTRICT OF COLUMBIA'S GUN LAWS

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2008

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, Davis 
of Illinois, Tierney, Watson, Lynch, Yarmuth, Norton, McCollum, 
Van Hollen, Sarbanes, Welch, Speier, Davis of Virginia, Burton, 
Mica, Souder, Platts, Duncan, Issa, McHenry, Foxx, Bilbray, 
Sali, and Jordan.
    Staff present: Kristin Amerling, general counsel; Michelle 
Ash, chief legislative counsel; Caren Auchman and Ella Hoffman, 
press assistants; Phil Barnett, staff director and chief 
counsel; Jen Berenholz, deputy clerk; Stacia Cardille, counsel; 
Zhongrui ``JR'' Den, chief information officer; Miriam Edelman, 
Jennifer Owens, and Mitch Smiley, special assistants; Ali 
Golden, investigator; Earley Green, chief clerk; Davis Leviss, 
senior investigative counsel; Karen Lightfoot, communications 
director and senior policy advisor; David Rapallo, chief 
investigative counsel; Leneal Scott, information systems 
manager; John Williams, deputy chief investigative counsel; 
Lawrence Halloran, minority staff director; Jennifer Safavian, 
chief counsel for oversight and investigations; Ellen Brown, 
minority senior policy counsel; Jim Moore, minority counsel; 
Christopher Bright and Howie Denis, minority senior 
professional staff members; John Cuaderes, minority senior 
investigator and policy advisor; Adam Fromm, minority 
professional staff member; Patrick Lyden, minority 
parliamentarian and Member services coordinator; and Brian 
McNicoll, minority communications director.
    Chairman Waxman. The meeting of the committee will please 
come to order. Today the committee will analyze the effects of 
Federal gun legislation on the District of Columbia.
    There are two competing bills we will be considering. One 
is H.R. 6691, a bill that would make sweeping changes to the 
laws governing the possession and use of firearms in the 
District of Columbia. The other is legislation that 
Congresswoman Norton will introduce that directs the District 
to revise its gun laws as necessary to comply with the Supreme 
Court's recent decision.
    H.R. 6691 is called the ``Second Amendment Enforcement 
Act,'' but that title is a ruse. The provisions in this 
legislation bear no relationship to the carefully crafted 
Supreme Court decision recognizing a second amendment right to 
possess a handgun in the home. Instead, the bill is a wholesale 
evisceration of the District's gun laws. It is extreme 
legislation being pushed by the NRA that goes way beyond what 
the court required in the Heller decision.
    The reason we are holding this hearing is so that Members 
can understand the homeland security impacts of legislation 
like H.R. 6691.
    The District is a target-rich environment for terrorists. 
The President and the Vice President live here. The Congress 
and the Supreme Court are located here. Most Federal 
departments have their headquarters in Washington. And hundreds 
of foreign dignitaries travel to Washington, DC, each year.
    Yet the NRA bill would repeal the District's ban on 
semiautomatic assault weapons. In fact, it would allow 
individuals to carry military-style rifles like AK-47s, Uzis, 
and SKS assault rifles on the streets of Washington.
    Next January 20th, the next President of the United States 
will be sworn into office. I don't know whether that person 
will be Senator Obama or Senator McCain, but I do know that if 
the NRA bill becomes law, protecting him will become vastly 
more difficult.
    On his first day in office, our next President will lead an 
inaugural parade down Pennsylvania Avenue. Huge crowds will 
assemble to celebrate. How can we expect the Secret Service and 
the Metropolitan Police Department to protect the new President 
and the public if it becomes legal to possess semiautomatic 
assault weapons in the District?
    Some members of this committee may know what 50-caliber 
sniper rifles are. The same weapons are currently being used by 
our military in Iraq and Afghanistan to kill enemy forces and 
disable vehicles. They have a lethal range of over 1 mile.
    Yet under this bill, there would be no registration 
requirement for 50-caliber sniper rifles. There would be no 
limitations on carrying them in public. And armored limousines 
traveling across the District would face a perilous new threat.
    Perhaps the greatest new threat is the repeal of the 
District's ban on semiautomatic handguns. These weapons are 
regularly and easily concealable. They have a history of being 
used in violent attacks like the Virginia Tech and Columbine 
massacres, and now they would be legal.
    There are other important ways in which District law 
protects homeland security. Unlike Federal law, the District 
requires background checks for all gun sales, including sales 
of weapons at gun shows. And District law requires the 
registration of all firearms.
    Yet these essential safeguards would all be repealed, and 
the District would be effectively barred from enacting firearm 
regulations in the future.
    My staff has prepared a legislative analysis of the impact 
of H.R. 6691, and I ask that it be made available to Members 
and part of today's hearing record. And, without objection.
    We are fortunate to have some of the Nation's top experts 
at today's hearing to explain to us the impact of repealing 
D.C.'s gun laws. Cathy Lanier is the chief of the Metropolitan 
Police Department. It is her officers who clear the way for 
official motorcades and shoulder much of the burden of 
protecting Federal and foreign officials.
    Phillip Morse is the chief of the Capitol Police. His 
officers are primarily responsible for the security of this 
building and the rest of Congress.
    Kevin Hay is the deputy chief of the U.S. Park Police. His 
officers maintain security in and around the National Mall and 
the extensive Federal parklands in the Nation's Capital.
    And Bob Campbell is the head of security for the Washington 
Nationals. His team of security experts protect Washington's 
newest venue from attacks.
    We also invited the Secret Service and the U.S. Marshals to 
testify, but the Bush administration has blocked their 
appearance. The Marshals had identified a witness who could 
have testified, but the Department of Justice refused to allow 
him to do so. They even canceled a briefing that had been 
scheduled for committee staff.
    The Secret Service told committee staff that they didn't 
want their officials to testify for, ``political reasons.''
    When the security of the Nation's Capital is at issue, 
there should be no political divide. We all have an interest in 
making the Nation's Capital as safe and secure as possible.
    Today's hearing will be followed by a committee business 
meeting tomorrow. The bill I intend to call up will be 
Congresswoman Norton's bill. Undoubtedly, there will be an 
effort to amend her bill with the text of the NRA bill. The 
purpose of today's hearing is to assure that when Members vote 
on these two radically different approaches they have a full 
understanding of the impacts of these bills.
    Our Nation has spent tens of billions of dollars to 
strengthen our homeland security. We should not jeopardize that 
investment and the security of our Nation's Capital by passing 
reckless legislation that virtually eliminates all gun laws in 
the Nation's Capital.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. I want to now recognize Mr. Davis, and 
then we will recognize the subcommittee chair and ranking 
member of the subcommittee that would have otherwise been 
holding hearings on this. Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. I feel for 
you. Your leadership has basically already cut a deal, it 
sounds like to me, and we are here trying to deal with it, get 
the hearings out.
    I am disappointed we have convened this morning just to 
talk about guns. There is so much more we could and should be 
doing to forge a constructive relationship between Congress and 
the District. I think the cynical and selective manipulation of 
District issues in the service of external political agendas 
really diminishes our legitimate oversight and legislative 
authority, and I think it is a disservice to the citizens of 
our Nation's Capital.
    When I became chairman of the Subcommittee on the District 
of Columbia, at that point the city was bankrupt. That crisis 
was fueled in no small part by congressional failure to 
exercise appropriate oversight in our own backyard. Successive 
Republican Congresses, working with a Democratic President, 
helped save the District, put the city on the road to recovery. 
But on issues ranging from D.C. schools, the child welfare 
system, multimillion-dollar embezzlements from the tax 
department, failing fire hydrants and more, this Congress has 
had little time for pressing local matters that I and others 
believe the committee should examine.
    Just last week a Washington Post editorial commented on the 
need for the District to put a ceiling on borrowing. I agree, 
and the Congress should reassert its role as the guardian of 
the city's fiscal health and creditworthiness. Not through 
legislation necessarily, but through oversight and hearings.
    So why are we here? Well, yesterday's Washington Post 
editorial got it right. This hearing is not really about the 
physical safety of District residents and Federal employees. We 
are here out of concern for the political safety of some 
conservative Democratic Members of Congress. As the Post said, 
House Democrats make much of their support for the right of the 
District to self-government. Too bad they are willing to 
sacrifice this basic tenet of American democracy to the 
political self-interests of Members cowed by the powerful gun 
lobby.
    D.C. is rewriting its gun laws in light of the Supreme 
Court's Heller decision. Some would like them to do it faster. 
Some would like them to do it differently. And some would like 
to do it for them. I support D.C. home rule, and always have, 
and I support the rights of the citizens of the District under 
the second amendment, rights they have been denied for too 
long.
    I was on the amicus brief to overturn the Heller decision--
to support Heller. But the two shouldn't be in conflict. Like 
the States and counties we represent, the District has self-
governing authority to write the laws under which its citizens 
live. But the District, as a Federal city, also has Congress as 
its legislature of last resort, and we should exercise that 
power thoughtfully, surgically, and sparingly. Hearings on this 
don't necessarily overturn the opinion or absolve the city from 
its obligations to operate under gun laws that pass 
constitutional muster, but it is important that we hear from 
the District officials and others on how they will approach the 
important public safety problems in the post-Heller world.
    In terms of legislation, Mr. Chairman, I feel for you. I 
have been where you are. We all know that the deal has been cut 
by your leadership to vote on H.R. 6691. So I appreciate what 
you are trying to do here today to get some facts out before us 
so we can talk about them. One way or the other, it seems the 
only sure impact of any legislation dealing with D.C. gun laws 
will be that the Democratic House will abandoned its professed 
allegiance to home rule.
    Chairman Waxman. Thank you, Mr. Davis. I hope we can make 
sure from our committee that we don't do that when we get to 
the House floor. But I appreciate your statement.
    I want to recognize Mr. Danny Davis, chairman of the 
subcommittee that has jurisdiction over the District of 
Columbia.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me just say that I am a strong supporter of home rule for 
the District of Columbia. And let me thank you for holding this 
morning's hearing. And more so for elevating the significance 
of promoting safety and security here in our Nation's Capital.
    While the District of Columbia and its gun laws have come 
under increased attention after the Supreme Court decision in 
the Heller case, let us note that the District and its 
residents have long grappled with the issue restricting or 
regulating gun ownership, thereby instituting policies for a 
specific purpose. And that purpose was to ensure the safety, 
security, and well-being of its residents, visitors, 
businesses, and in many respects its largest employer, the 
Federal Government.
    Now I would like to yield to Delegate Norton, whose bill we 
are going to be discussing tomorrow in the business meeting. 
And I would yield the balance of my time to Delegate Eleanor 
Holmes Norton.
    Ms. Norton. Thank you, Chairman Davis. And may I thank 
Chairman Waxman for this early hearing on the National Capital 
Security and Safety Act that he and I will introduce today, and 
on H.R. 6691, the second of two NRA-inspired anti-home rule 
bills, and for the markup of our bill tomorrow.
    The two bills under consideration are polar opposites. H.R. 
6691, introduced on July 31st, is a near copy of a previous 
bill, H.R. 1399, seeking to federalize local D.C. gun laws by 
eliminating all District of Columbia jurisdiction over gun 
safety legislation. However, the Waxman-Norton bill and 
findings address only the limited Federal purpose of assuring 
that Federal public safety and security concerns are not put at 
risk by the new law the city began to write immediately after 
the Supreme Court decision, and that jurisdictions across the 
country are writing now as well.
    The Federal interest of Congress expressed in the Waxman-
Norton bill would apply to any self-governing jurisdiction. 
After the first of two anti-home rule bills failed to get 
enough signatures for discharge from this committee, Members 
filed H.R. 6691 on July 31st, as Congress adjourned for recess.
    In light of H.R. 6691, the chairman and his able staff and 
my staff and I have investigated what Federal interest, if any, 
might be implicated by the D.C. Council's work in progress to 
revise the city's gun safety laws as required by the Supreme 
Court decision in District of Columbia v. Heller.
    The bill Chairman Waxman and I will file today respects the 
self-governing authority every district expects, and takes no 
position on D.C. gun safety legislation, which is the subject 
of the two gun bills we oppose. Although Heller was decided on 
June 26th, as one of the last decisions decided by the Supreme 
Court before it adjourned, the mayor and City Council somehow 
managed to enact at least a minimum consensus bill that, 
without time for hearings, was necessarily a stopgap measure, 
effective only for 90 days.
    Considering that the Council's own adjournment was at hand, 
this temporary District provision shows abundant good faith in 
complying with the decision without delaying issuance of 
permits to own guns in the District of Columbia. It is fair, 
therefore, to inquire whether any comparable public purpose or 
good faith is served by H.R. 6691.
    H.R. 6691 cannot have been filed because the District has 
shown it will not comply with the Heller decision. Indeed, H.R. 
6691's fraternal twin, H.R. 1399, was introduced on March 8, 
2007, a year and a half before the Supreme Court invalidated 
D.C.'s gun safety laws. Nor is the second House bill, H.R. 
6691, a reaction to the District's failure to comply with 
Heller. The District is complying with Heller, not only with 
the temporary measure which has allowed Dick Heller himself to 
register his 22-caliber revolver, the temporary D.C. provision 
has been in the process of change well before this hearing 
today.
    The D.C. Council Chair of the Committee on Public Safety 
and Judiciary, Phil Mendelson, has notified Council Chair 
Vincent Gray of his intention to submit several substantive 
amendments that will significantly change the Council's 
temporary provision. According to a Mendelson memo of September 
9th, the committee chair will seek to revise the temporary 
provision's definition of ``machine gun'' in order to allow 
most semiautomatic guns to be registered, but with a ban on 
extended ammunition clips to make the safe storage requirement 
of a trigger lock advisory, relying instead on so-called cap 
laws, establishing penalties for child access to firearms--
because cap laws have proven more effective than safe storage 
requirements, according to Chairman Mendelson's research--to 
repeal time-consuming and largely ineffective ballistic testing 
requirements in favor of state-of-the-art microstamping on the 
gun itself, and to repeal the one pistol per registration 
limit.
    I ask that Chairman Mendelson's full memo, Mr. Chairman, to 
Chairman Gray be entered into the record.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Even Mr. Mendelson's amendments may be revised, 
not to mention submissions by other Council members after 
hearings on the permanent Council bill scheduled for September 
18th and October 1st, in time for the earliest action by the 
Council. Notwithstanding one's views on the city's temporary 
bill or on Chairman Mendelson's proposed revisions, it is 
impossible to view them as untimely or unresponsive to the 
Heller decision. Nor does the Council's work thus far appear to 
endanger the Federal presence, Federal officials or employees, 
or visiting dignitaries.
    Can the same be said of H.R. 6691? Two days before the 
seventh anniversary of the 9/11 attack on the National Capital 
Region, we ask the following questions:
    Is this broadly permissive bill that would allow high-
capacity Tec-9s and Uzi handguns and military-style 
semiautomatic rifles, such as 50-caliber armor-piercing sniper 
rifles, AK-47s, and the Bushmaster XM-15 used by the D.C. 
sniper, to be carried downtown and throughout our neighborhoods 
responsive to Justice Antonin Scalia's narrow 5-to-4 opinion 
permitting guns in the home for self defense?
    Does the H.R. 6691 provision that would permit teens and 
kids to carry loaded assault weapons protect or endanger 
Federal officials and employees?
    Would the H.R. 6691 repeal of the minimum age of 21 for 
possession of an assault rifle enhance or risk the safety of 
dignitaries and other federally protected individuals in a city 
experiencing an upsurge in juvenile gun violence and gang gun 
violence?
    How does repeal of gun registration with District police in 
the National capital city deter gun violence against federally 
protected individuals or address the police task of tracing 
guns used in crimes?
    Particularly following the attempt on the late President, 
Ronald Reagan, by John Hinckley, still confined at St. 
Elizabeth's Hospital, why would any Member of Congress propose 
repealing the District's prohibition on possessing gun 
possession by 5 years on anyone voluntarily committed to a 
mental institution?
    And why would Members of Congress revise Federal gun law, 
as H.R. 6691 would, to allow D.C. residents to purchase guns in 
Maryland and Virginia, whose gun laws and regulations differ 
significantly, facilitating legal gun-running across State 
lines into the District of Columbia?
    At today's hearing we will hear from expert witnesses whose 
life work and assignments as law enforcement officers in the 
Nation's Capital have educated them to the answers to these and 
other questions raised by the bills before us today.
    We welcome Metropolitan Police Department chief, Cathy 
Lanier, who has a unique role in the Nation's Capital as the 
chief of police for the largest police force in the region, and 
in her former position as the first commanding officer of the 
department's Office of Homeland Security and Counterterrorism; 
Chief Phillip Morse, Sr., of the Capitol Police, whose 
jurisdiction, of course, covers the Capitol and its grounds; 
Chief Kevin Hay, whose jurisdiction at the U.S. Park Service 
covers the entire National Capital Region; and Bob Campbell, 
director of security, Washington Nationals, and a former Secret 
Service agent.
    I thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Ms. Norton. In the 
absence of the ranking member of the subcommittee, the Chair 
wishes to recognize Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman, Ranking Member Davis. I 
want to thank you for calling this important hearing about the 
impact of proposed legislation on the District of Columbia's 
gun laws.
    As an original cosponsor of H.R. 6691, the Second Amendment 
Enforcement Act, I am pleased that such a strong bipartisan 
bill has come forward to recognize the second amendment rights 
of Washington, DC, residents. This important legislation is in 
direct response to the D.C. City Council passing emergency laws 
that disregard the Supreme Court's ruling in the District of 
Columbia v. Heller case by creating other new restrictions on 
District residents' rights.
    I am concerned that the new restrictions also violate the 
Constitution and the clear meaning of the second amendment, as 
drafted by our Founding Fathers. Our Founding Fathers intended 
that firearm ownership is an individual right for law-abiding 
citizens, a right that in part helps law-abiding citizens 
defend their lives, their families, and their property through 
possession and use of firearms. With the Heller case, the right 
to keep and bear arms is now indisputably an individual right.
    Congress must be vigilant to safeguard the second 
amendment, which should mean the same thing today as it did at 
the birth of our Nation. The second amendment should not be 
abridged by the D.C.'s City Council's anti-gun regulations. We 
all took an oath to uphold the Constitution, including both 
responsibilities to the District of Columbia as well as 
withholding the second amendment.
    The second amendment states, in part, the right of the 
people to keep and bear arms shall not be infringed. Defending 
that provision is a matter of obligation on the part of this 
body. The D.C. emergency laws need to be brought in line with 
the Heller decision, and this legislation does exactly that. 
The bill has broad bipartisan support and deserves a vote on 
the House floor promptly.
    Thank you, Mr. Chairman. I look forward to today's hearing.
    Chairman Waxman. Thank you very much, Mr. Sali.
    Well, we do have four witnesses today with us. I want to 
introduce them. Cathy Lanier is the chief of the District of 
Columbia Metropolitan Police Department. Phillip D. Morse, Sr., 
is the chief of the U.S. Capitol Police. Kevin C. Hay is Deputy 
chief of the U.S. Park Police. And Robert Campbell is the 
security director for the Washington Nationals, and is a former 
Secret Service agent.
    We want to welcome each of you to the hearing today. It is 
the practice of this committee that all witnesses that testify 
do so under oath. So if you would please stand and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative. Any prepared statement 
you submitted will be made part of the record in full.
    We would like to ask each of you, if you would, to try to 
limit the oral presentation to 5 minutes. We will have a clock 
in the center there. It will be green for 4 minutes, yellow for 
1, and then when the time is up it will turn red. When you see 
that it is red, we would like you to summarize and conclude 
your testimony.
    Ms. Lanier, why don't we start with you?

    STATEMENTS OF CATHY LANIER, CHIEF, DISTRICT OF COLUMBIA 
 METROPOLITAN POLICE DEPARTMENT; PHILLIP D. MORSE, SR., CHIEF, 
U.S. CAPITOL POLICE; AND KEVIN C. HAY, DEPUTY CHIEF, U.S. PARK 
 POLICE; AND ROBERT CAMPBELL, DIRECTOR OF SECURITY, WASHINGTON 
                    NATIONALS BASEBALL CLUB

                STATEMENT OF CHIEF CATHY LANIER

    Chief Lanier. Good morning. Good morning, Chairman Waxman, 
members of the committee, staff, and guests. My name is Cathy 
Lanier, and I am the chief of police for the Metropolitan 
Police Department, Washington, DC.
    I want to point out that I have seated behind me the 
Attorney General, Peter Nickles, as well as Lieutenant John 
Shelton, who is in charge of our firearms registration section.
    Thank you for the opportunity to present this statement on 
the likely impact of H.R. 6691 on public safety in the Nation's 
Capital. To begin with, I would like to briefly share with you 
what has happened in Washington, DC, since the U.S. Supreme 
Court issued its decision in District of Columbia v. Heller. 
The District of Columbia, both the executive and legislative 
branches, fully respect the Supreme Court's decision. We have 
demonstrated that respect by taking actions quickly to pass 
legislation and emergency regulations to enable the 
registration of handguns to ensure that residents already 
possessing unregistered handguns could register them without 
fear of criminal liability under the District law. The current 
legislation and regulations are only temporary, valid for 90 
and 120 days respectively, and remain works in progress.
    The Council of the District of Columbia will be holding a 
hearing next week to continue to elicit comment from the 
public, and will amend temporary legislation on September 16th, 
and enact permanent legislation soon thereafter.
    Today's hearing is another important opportunity to hear a 
variety of viewpoints on this issue. After the court ruling, I 
mobilized my staff to ensure that the Metropolitan Police 
Department's 4,000 sworn members and the public were 
immediately educated about the impact of that ruling. At the 
same time, I issued a personal message to the public on 
community listservs, posted information on our Web site, and 
created a 24-hour public hotline. Since the regulations were 
issued, the Metropolitan Police Department has registered 23 
handguns. We expect this volume to increase now that there is a 
firearms dealer in the District of Columbia that has a Federal 
firearms license.
    Turning to H.R. 6691, I have grave concerns about the 
proposed bill, which would prevent the District of Columbia 
from registering firearms or taking many other reasonable and 
commonly used steps taken by other States and municipalities 
across the country to regulate or limit possession and use of 
firearms. In layman's terms, this means that anyone not 
prohibited by Federal law from possessing a firearm could 
legally own a small, easily concealed semiautomatic handgun, or 
could carry a semiautomatic rifle on the street, either of 
which could be capable of firing up to 30 rounds of ammunition 
without reloading.
    In my professional opinion, if H.R. 6691 were passed, it 
would be far more difficult for the Metropolitan Police 
Department and Federal law enforcement agencies in the District 
of Columbia to ensure the safety and security of the Nation's 
Capital. I say this not just as a police officer, but someone 
with extensive experience in homeland security and 
counterterrorism.
    As Representative Norton mentioned, after September 11th I 
served as the Commander of the Special Operations Division for 
4 years, and was the first commanding officer of the 
department's Office of Homeland Security and Counterterrorism. 
In that capacity, I worked extensively with multi-agency task 
forces of local and Federal law enforcement agencies to plan 
and implement security for critical events like the 
Presidential inauguration. In short, I have spent a great deal 
of time working with national experts to analyze terror threats 
and develop ways to combat them, especially here in the 
Nation's Capital.
    The terrorist attacks of September 11, 2001, demonstrated 
what we have known for a very long time, that government 
facilities, dignitaries, and public servants are prime targets 
for terrorists, both foreign and domestic. Protecting 
government officials and infrastructure is a challenge for 
every city in the United States, but in Washington, DC, the 
likelihood of an attack is higher, and the challenges in 
protecting the city are much greater. The District's high 
concentration of iconic structures, such as the national 
monuments, the White House, and of course the Capitol make it a 
highly attractive target.
    The high-profile human targets, from the Nation's top 
elected leaders to more than 400 foreign dignitaries that make 
official visits to D.C. each year, are also obviously an 
attractive target.
    In addition, any Federal building or career public servant 
is a potential target. We have seen this in numerous attacks, 
from the Oklahoma City bombing to the 1993 shootings outside of 
CIA headquarters in Langley. And overseas, even the families of 
high-profile leaders and public servants are frequently targets 
of terrorists. I hope that we never see that here in the United 
States, but with the many more important U.S. officials and 
foreign dignitaries here in this city, it is a possibility that 
we need to recognize. Moreover, it is not just well-coordinated 
terrorist attacks we need to secure our city against. We must 
also consider the unsophisticated lone wolf terrorist, angry at 
the U.S. Government for seemingly a small matter such as a tax 
return.
    The second key vulnerability is due to the sheer volume of 
secure motorcades traveling in Washington, DC, on any given 
day. Given the daily movements around the city of the 
President, the Vice President, and their families, and the fact 
that almost 3,000 foreign dignitaries spend time in the city 
each year, the routes for their movements cannot be shut down 
as they are in other cities. As you know from your own 
districts, when the President and Vice President travel outside 
of Washington, the roads are cleared of all traffic, parked 
cars and such, and spectators are often cleared or kept behind 
barricades. We don't do this in D.C., because shutting the 
routes for every motorcade would make it virtually impossible 
to navigate much of the city on a continuous basis. And we 
don't want the Nation's Capital to take on the character of an 
armed fortress.
    This freedom, however, comes with the cost of higher 
vulnerability both for the officials and dignitaries and the 
general population. In attempted and successful assassinations 
around the world, the first step in attacking a motorcade is 
frequently an attack on the security detail with semiautomatic 
and automatic firearms. This forces the motorcade to stop, at 
which point terrorists can use explosives to attack the armored 
vehicles carrying the targeted individual.
    In addition to assisting the Secret Service with the daily 
movements of the President and Vice President around the city 
and protecting foreign dignitaries, the Metropolitan Police 
also provide security support for more than 4,000 special 
events each year in Washington, DC. Some of these events are 
small, like low-profile protests or foot races, and the threat 
of a terrorist attack on these events is relatively low.
    However, the risk associated with other events are 
significant. I would ask you to consider, for example, two 
events familiar to almost every American, and I believe 
extremely important to the city and the Nation, the Fourth of 
July celebration on the National Mall and the Presidential 
inauguration. Hundreds of thousands of Americans will be here 
for these public events. Imagine how difficult it would be for 
law enforcement to safeguard the public, not to mention the new 
President in the inaugural parade, if carrying semiautomatic 
rifles were suddenly to become legal in Washington.
    As another example, I would remind the committee of the 
8,000 delegates who come to Washington, DC, from around the 
world each fall for the meeting of the Board of Governors of 
the International Monetary Fund and World Bank. These delegates 
stay at 16 different hotels around the city. Even under current 
law, new challenges to protecting these delegates from 
terrorist threats arise each year. That risk would grow 
exponentially if we also had to protect them from legally armed 
lone wolf gunmen staying or working in or around one of the 
hotels.
    If these scenarios scare you, they should. They scare me. 
We have an immediate concern for any life threatened or lost in 
a terrorist event. But here in the Nation's Capital, we also 
must recognize that any terrorist incident, no matter how 
small, would garner worldwide attention and could have 
significant international implications. I am certain that the 
broader repercussions of an incident in this city is also a 
grave concern to everyone in this room.
    Finally, on a personal level, the thought of a member of 
the Metropolitan Police Department or any law enforcement 
officer being injured or killed during such an incident worries 
me greatly. The safety of the men and women of the Metropolitan 
Police Department serving the city and the country are my 
responsibility, and I take that responsibility seriously. My 
department devotes significant resources to try and prevent 
such an event.
    Providing easy access to deadly semiautomatic firearms and 
high-capacity ammunition clips, and allowing them to be carried 
in a large number of places outside the home will make my job 
much more difficult. It is clear to me and others engaged in 
everyday securing D.C. against terrorism that our city is 
unique. The Federal Government already acknowledges that 
authorizing the general public to carry firearms in certain 
places is not in the general interests. For instance, as a law 
enforcement officer, I can carry my gun almost anywhere in this 
country. I can carry it in schools, on airplanes, and in most 
public buildings. But ironically, upon entering the Supreme 
Court to hear arguments in the Heller case, I learned that even 
as the chief of police of the Metropolitan Police Department I 
had to surrender my gun when I entered the Supreme Court. The 
Federal Government considers the Court building to be so 
sensitive that no matter who you are, you cannot wear your 
firearm in the building.
    I would argue that similar caution should apply to the 
District of Columbia. Supreme Court Justice Scalia, writing the 
majority decision for the Court, acknowledged that laws 
forbidding the carrying of firearms in sensitive places such as 
schools and government buildings are constitutional. The 
District of Columbia, as the seat of the Federal Government, 
with its multitude of critical official and symbolic buildings, 
monuments, and events, and high-profile public officials 
traversing our streets every day, is a city filled with 
sensitive places. Our laws should reflect that reality.
    Thank you again for the opportunity to appear before you 
today, and I am pleased to answer any questions.
    Chairman Waxman. Thank you very much, Ms. Lanier. We will 
ask questions after all witnesses have finished.
    [The prepared statement of Chief Lanier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Waxman. Mr. Morse.

            STATEMENT OF CHIEF PHILLIP D. MORSE, SR.

    Chief Morse. Mr. Chairman and members of the committee, I 
would like to thank you for the opportunity to appear before 
you today to discuss the potential impact of the proposed 
legislation regarding the District of Columbia's gun ban or gun 
laws.
    The mission of the U.S. Capitol Police is to protect the 
Congress, its legislative processes, Members, employees, 
visitors and facilities from crime, disruption, or terrorism. 
We protect and secure Congress so it can fulfill its 
constitutional responsibilities.
    Our history is full of incidents where U.S. Capitol Police 
officers have encountered armed individuals during the course 
of their duties. Whether the confrontation occurred as a result 
of a street crime or from an individual attempting to enter one 
of our buildings, every encounter poses a danger to both the 
officer and the armed individual.
    We all remember the sacrifice of Officer Chestnut and 
Detective Gibson at the Capitol in 1998. Just this year, our 
officers confronted two individuals in our jurisdiction who 
were armed with heavy weapons, one carrying a loaded shotgun, 
and the other, who was arrested just last Friday, had a loaded 
AK-47 in his vehicle.
    Mr. Chairman and members of the committee, providing 
security, protection, and law enforcement services for the U.S. 
Congress within the Capitol complex in a post-9/11 threat 
environment is a challenging task. My officers must be able to 
quickly identify individuals who pose a threat. To do this, we 
rely on the provisions of 40 U.S. Code 5104, which states, 
``except as authorized by regulations prescribed by the Capitol 
Police Board, persons may not carry or have readily accessible 
to any individual on the grounds or in any of the Capitol 
buildings a firearm, a dangerous weapon, explosives or 
incendiary device.''
    As the Nation's Capital, Washington, DC, is unlike any 
other city in this country. The presence of all three branches 
of government, our Nation's leaders, foreign dignitaries, our 
national icons, as well as good residents of the city, requires 
the combined efforts of multiple law enforcement agencies.
    I believe that level of coordination between the local and 
Federal law enforcement agencies, and the retraining our 
personnel that will be necessitated by the passage of H.R. 6691 
will be substantial. Therefore, I would encourage the formation 
of a task force of representatives of the law enforcement 
agencies represented here today to be established to fully 
consider the impacts, proposed provisions of H.R. 6691, and to 
address the issues of implementation and coordination 
throughout the District of Columbia.
    I will be pleased to answer any questions that you may 
have.
    Chairman Waxman. Thank you very much, Mr. Morse.
    [The prepared statement of Chief Morse follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Mr. Hay.

                   STATEMENT OF KEVIN C. HAY

    Mr. Hay. Thank you, Mr. Chairman, for the opportunity to 
address the members of the committee today regarding H.R. 6691 
and its effect on homeland security and safety within the 
Nation's Capital. The U.S. Park Police operate primarily in the 
urban areas of the National Park Service in Washington, DC, New 
York, San Francisco, California. We have been serving the 
Nation's Capital since 1791. We have worked in Federal 
parklands in New York and San Francisco since 1974. In 1883, 
the U.S. Congress granted the U.S. Park Police the same 
jurisdiction and authority as the Metropolitan Police of 
Washington, DC.
    In 1948, Congress passed the Environs Act, which granted 
the force arrest authority on all Federal reservations in the 
nine counties in Maryland and Virginia that surround the 
District of Columbia. Under Title 16 U.S.C. 1(a) through 6, we 
have the same arrest authority as National Park Service rangers 
in all areas of the national park system. In addition, we have 
been granted State peace officer authority in Virginia and New 
York, California, and a more limited version in Maryland and 
New Jersey. These authorities are necessary to allow us to 
safeguard over 125,000 acres of Federal parkland in the Golden 
Gate National Recreation Area in California, the Gateway 
National Recreation Area in New York and New Jersey, and of 
course here, the parklands in Washington, DC, and the parkways.
    The U.S. Park Police work closely with Federal, State, and 
local enforcement agencies to maintain the peace on Federal 
parklands and in areas of our jurisdictional borders. For 
example, in Washington, DC, area, the five Federal parkways 
leading into the Nation's Capital were in some cases built to 
connect the Federal facilities with the Nation's Capital.
    Most of these are now designated as critical 
infrastructure. They include on the George Washington Memorial 
Parkway areas such as CIA, the Pentagon, and Reagan National 
Airport. The Suitland Parkway, we have responsibilities out at 
Andrews Air Force Base and the Southeast Federal Center. We 
also patrol the borders of Bolling Air Force Base and the Naval 
Research Laboratory. On the Clara Barton Parkway, there is the 
Naval Surface Warfare Center. On the Baltimore-Washington 
Parkway, there is Fort Meade, NSA, NASA, and the Agricultural 
Research Center. Finally, on Rock Creek, we often use the Rock 
Creek Parkway for Presidential motorcades and foreign 
dignitaries going out to the various embassies on Massachusetts 
Avenue, which occurred most recently during the Pope's visit. 
Pope Benedict.
    In Washington, DC, we patrol and handle demonstrations at 
Lafayette Park, the Ellipse on both sides of the White House, 
the National Mall, which borders the U.S. Capitol, and we are 
solely responsible for the protection of such national icons as 
the Washington Monument, the Lincoln Memorial, and the 
Jefferson Memorial.
    In California, we patrol the lands on both sides of the 
Golden Gate Bridge. In New York Harbor, parts of the Verrazano 
Narrows Bridge are likewise on NPS jurisdiction, as is the 
Statue of Liberty.
    We maintain over 60 MOUs with allied agencies to enforce 
the law and keep the peace not only in these NPS areas, but to 
assist our neighbors in protecting critical infrastructure and 
key resources required under homeland security Presidential 
directives. We make over 4,000 arrests and deal with over 
10,000 special events and demonstrations per year. We work 
closely on a daily basis with local, State, and Federal law 
enforcement agencies in the Washington metropolitan area. Our 
officers and those of other agencies coordinate activities, in 
many instances provide backup to each other. We work closely 
with the Metropolitan Police and U.S. Capitol Police during 
these special events and demonstrations, which occur on our 
areas of contiguous jurisdiction. We also work closely with the 
U.S. Secret Service and their dignitary protection mission, 
primarily around the White House complex, or while their 
protectees are visiting National Park Service locations.
    Currently, we are already planning our part in the 
inauguration of the next President. As a uniformed agency, the 
U.S. Park Police serve a unique and active role in Federal law 
enforcement. Since the 1930's, 10 force members have been 
killed in the line of duty, 8 here in the District of Columbia, 
and 2 on the parkways of Virginia and Maryland.
    The Department of Justice's annual report on Law 
Enforcement Officers Killed and Assaulted [LEOKA], reveals that 
per capita we are one of the most assaulted agencies within the 
Federal law enforcement community. On average we seize 87 
firearms annually in Washington, DC.
    For example, last week we arrested a suspect with a loaded 
12-gauge shotgun with a collapsible stock in Anacostia Park. 
The week before, we seized a fully automatic Uzi submachine gun 
at 1 a.m., at River Terrace Park from a couple engaged in 
illicit activity inside a playground. The far majority of the 
weapons we seize are taken from suspects in public places, 
often resulting from traffic stops or from contacts related to 
drugs or alcohol abuse.
    In closing, Mr. Chairman, again I want to thank you and the 
members of the committee for inviting me to testify today and 
for your continuing work regarding public safety. I would be 
pleased to address any questions that you might have.
    Chairman Waxman. Thank you very much, Mr. Hay.
    [The prepared statement of Mr. Hay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Mr. Campbell.

                  STATEMENT OF ROBERT CAMPBELL

    Mr. Campbell. Good morning, Mr. Chairman.
    Chairman Waxman. There is a button on the base of the mic. 
Give it a press.
    Mr. Campbell. Good morning, Mr. Chairman.
    Chairman Waxman. No, I guess I told you to turn it off.
    Mr. Campbell. Good morning, Mr. Chairman, and members of 
the committee. I am Robert Campbell, Director of Security for 
the Washington Nationals Baseball Club. Prior to joining the 
team, I served 20 years with the U.S. Secret Service, and 
retired in 2003.
    Like all ballparks in Major League Baseball, Nationals Park 
does not allow fans to carry firearms into the building. We 
believe this is a prudent policy that promotes the safety of 
fans, players, and others.
    Following are some of the factors behind this policy. There 
have been instances where players have been the victims of fan 
violence, most from projectiles and bodily attacks. Games, by 
their nature, can be emotional, and some overly aggressive fans 
can be volatile based on the prospects of their teams. Insofar 
as alcohol is served, there are occasions when fan behavior is 
influenced accordingly. The ballpark is densely populated, with 
up to 42,000 people in a confined space. Given our location in 
the Nation's Capital, our fans often include dignitaries, to 
include heads of foreign governments, and high ranking U.S. 
officials, whose security could be compromised if they were in 
a situation where there might be firearms present.
    Depending upon attendance, there could be as many as 1,000 
employees in the ballpark, many of whose duties involve dealing 
with customers in fast-paced and sometimes hectic environments. 
Their ability to secure firearms safely would be compromised 
more than most any other work environment.
    Moreover, the ballpark is a secure place where fans can be 
assured of a safe, enjoyable atmosphere. We have had no 
instances of violent crimes committed against fans in the 
ballpark, and very few minor crimes such as pick-pocketing. The 
ballpark is surrounded each game by a large number of on-duty 
District police officers who are assigned to traffic safety and 
other duties. In addition, the team hires a number of off-duty 
officers in uniform who provide added security inside the park. 
They are supplemented by additional contract security and our 
in-house contingent.
    In short, we feel that in concert with the Metropolitan 
Police Department, we are providing a safe environment for 
families to spend together enjoying our Nation's pastime.
    Thank you for the opportunity to testify, and I am happy to 
answer any questions you may have.
    Chairman Waxman. Thank you very much, Mr. Campbell.
    I am going to start off the questions. Chief Lanier, I was 
struck by your testimony where you indicated that Washington is 
particularly vulnerable to a terrorist attack. Unlike other 
cities, we have lots of visiting dignitaries. We have the 
President of the United States, the Congress. We also have 
monuments that are important to our whole Nation.
    You indicated that if other cities had a motorcade, which 
would be not as usual as in Washington, they close off the 
roads and stop all traffic and keep the visitors and the public 
at bay. But you don't feel we can do that in Washington, DC. So 
your essential point is that is a different city in terms of 
the vulnerability than almost any other city in the country; is 
that right?
    Chief Lanier. Absolutely. We are the only jurisdiction that 
during high-level dignitary moves, including the President, 
that we don't clear the entire motorcade route.
    Chairman Waxman. Chief Morse and Chief Hay, do you agree 
with Chief Lanier's assessment?
    Chief Morse. Yes, I do.
    Chairman Waxman. Mr. Hay, do you agree?
    Mr. Hay. We still have this bill under policy review. It 
has not been completed.
    Chairman Waxman. I wasn't talking about the bill.
    Mr. Hay. OK.
    Chairman Waxman. I was talking about the vulnerability, 
special vulnerability of Washington, DC, unlike other cities.
    Mr. Hay. Clearly, with the amount of dignitaries we get, it 
is of a special concern.
    Chairman Waxman. Now, the bill, H.R. 6691, which is one of 
the bills we are considering, would change the District's gun 
laws. Chief Lanier, you described some of these changes in your 
testimony. And let me summarize them. The bill would repeal the 
ban on semiautomatic assault weapons, including both handguns 
and military-style rifles. They would allow people to carry 
semiautomatic rifles in public and on District streets fully 
loaded. It would eliminate the District's registration system, 
and cancel the department's ballistic fingerprint program. And 
it would eliminate criminal background checks for secondhand 
gun sales.
    What impact would these changes have on your job in 
protecting security in the Nation's Capital?
    Chief Lanier. I think pretty significant. I think the one 
thing about having some regulations for management of the guns 
that are registered, for example, in the District, offers 
layers that are common sense in homeland security. Detection, 
deterrence, and prevention is our primary goal.
    If you remove all of those barriers, for example a no 
registration process, allowing large capacity semiautomatic 
weapons, those are the hallmarks of detection, deterrence, and 
our goal of prevention. So I think that would have a 
significant impact.
    Chairman Waxman. Chief Hay, you are the deputy chief for 
the U.S. Park Police. Prior to the hearing, my staff talked to 
the chief of the U.S. Park Police, Chief Lauro. He expressed 
many of the same concerns as Chief Lanier. He said allowing 
assault weapons in Washington would increase dangers to 
dignitaries and put your officers at greater risk.
    Can you explain why the Park Police would be concerned 
about a proliferation of these weapons in the District?
    Mr. Hay. Well, the bill is still new enough that we have 
not really had a good opportunity to complete the policy review 
on this bill. We have not been able to completely vet all the 
ins and outs of it, where it is going to end up.
    Chairman Waxman. Would you be concerned, as your chief is, 
that if there is a proliferation of these weapons that would be 
a concern?
    Mr. Hay. We are always concerned when there is firearms of 
any type in and around the parks.
    Chairman Waxman. Thank you.
    Chief Morse, I understand you share some of the same 
concerns as Chief Lanier. Could you elaborate?
    Chief Morse. Well, with regard to your question about 
proliferation of guns, one of the tools or one of the 
advantages that the law enforcement officer has is, you know, 
knowing--is being able to discern who is good and who is bad. 
Here in the District of Columbia with the gun laws, you know, 
when we see a weapon it can only be one of two people, a law 
enforcement officer or someone who is in possession of a 
firearm illegally. So that is an advantage for us. If you have 
a proliferation of guns, it simply makes that job more 
challenging. And that becomes an officer safety issue, as well 
as a public safety issue.
    Chairman Waxman. Thank you. Well, I also wanted to ask 
Chief Lanier, we would have legalization of the semiautomatic 
assault weapons under H.R. 6691. Currently, the District has a 
ban on these semiautomatic weapons and that ban would be 
removed. Tell us about your concern about that provision.
    Chief Lanier. With all of the large special events we 
manage here in Washington, DC, and beginning in 2001, after 
September 11th, which became much more difficult for all of us, 
the first thought that comes to mind is just preparing for the 
Fourth of July celebration on the Mall. After 9/11, it became 
so much more difficult for all of us to garner the resources to 
actually be able to have checkpoints and funnel people safely 
onto the Mall and screen them for any type of potential 
weapons, explosives, and things of that nature.
    But if that restriction was removed for the automatic 
firearms and someone were able to, for example, walk down the 
street with a semiautomatic firearm, whether it be a rifle or a 
handgun, those checkpoints are fairly useless. You still have a 
very large crowd on the Mall. There is no physical barrier to 
protection. Snow fencing. And just the backdrop of that being 
the Independence Day celebration in the Nation's Capital makes 
it an extremely attractive target.
    So back to Chief Morse's point. For our officers to 
determine who the good guys and who the bad guys are and who 
may be outside of that crowd with potential to do massive 
amount of damage with an automatic firearms is a huge concern. 
So security for any event in the Nation's Capital would be more 
challenging for us.
    Chairman Waxman. Thank you. Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. Let me just 
ask, going back to the old law, is there any reason someone 
shouldn't be able to have a handgun in their home to protect 
themselves in a city with high crime? What was the problem with 
that?
    Chief Lanier. Well, the old law allowed for protection, 
self-protection in the home. You are allowed to register 
shotguns and rifles, and now you are allowed to register 
revolvers. Our concern really has been with the high-capacity 
semiautomatic weapons because of the ability for them to do a 
large amount damage in a short period of time. And particularly 
with semiautomatic handguns, which are easily concealed. They 
can be taken into a public place very quickly. But the District 
laws never prohibited you from having self-protection in your 
home.
    Mr. Davis of Virginia. Do you know what is the current 
status in the city today? If I move into the city today, can I 
have a gun? I mean just today, what is the current status?
    Chief Lanier. Yes, you can register a handgun in the 
District, a handgun, a shotgun, or a rifle in the District of 
Columbia. In fact, we have----
    Mr. Davis of Virginia. How many people--how can I register 
that? I was reading there was one guy you had to register it 
with, and that he wasn't always available. How easy is it for 
me to register?
    Chief Lanier. It is not that difficult. In average, our 
turnaround time for the registration process has been a matter 
of just a couple of days. We have registered so far in the 
District 25, 23, 24 handguns already. There are other 
applications in process. And there is now a Federal firearms--
--
    Mr. Davis of Virginia. Twenty-three handguns in the last 
month. That is it?
    Chief Lanier. There are others that are in process. There 
is a process to go and purchase the firearms and have them 
transferred.
    Mr. Davis of Virginia. What if I am being stalked? What if 
I am being stalked, let's say, by a boyfriend or something like 
that? How long is it going to take me to register?
    Chief Lanier. If you can legally register a firearm, you 
can register the firearm and have the background complete in 
just a matter of 2 or 3 days. I think the turnaround time has 
been about 2 days in the District since we started registering. 
And there are other protective measures in the District as 
well, from the courts and protective orders.
    Mr. Davis of Virginia. Have any of the witnesses today had 
a chance to talk with the Mayor or the Council about the 
proposed gun legislation or new emergency rule that is in 
place? When are they going to come up with their permanent fix 
on this?
    Chief Lanier. That is underway as we speak. There has been 
a period of comment during the temporary legislation. It is 
temporary, as are the registration regulations that we have 
issued. They are both temporary. And during that time we have 
taken comment from----
    Mr. Davis of Virginia. Chief, any idea when they expect to 
send that to the Hill?
    Chief Lanier. They are having hearings beginning on 
September 16th. And they will be done shortly thereafter.
    Mr. Davis of Virginia. Can you give me any idea of what the 
Council is going to do?
    Chief Lanier. I can't answer that question.
    Mr. Davis of Virginia. Let me ask Mr. Morse, do you have a 
clear understanding of what violates the current gun law in 
effect within the District?
    Chief Morse. I do.
    Mr. Davis of Virginia. Could you explain it to me?
    Chief Morse. What currently violates? Well, within my 
jurisdiction, as I stated in my opening statement, under Title 
405.104, you cannot possess a firearm, explosive or incendiary 
device within the Capitol complex. So that is the law that I 
enforce within the Capitol complex.
    Mr. Davis of Virginia. OK. How about outside the Capitol 
complex? Because my question asked you about the D.C. gun laws 
applying not just within the Capitol complex.
    Chief Morse. Well, as Chief Lanier stated, she stated that 
you could possess, if registered, a firearm, a rifle or a 
shotgun.
    Mr. Davis of Virginia. Chief, let me ask you this. How many 
handguns were registered in the city prior to the decision?
    Chief Lanier. I believe 66,000, is that correct, ever since 
the beginning of the law.
    Mr. Shelton. Prior to Heller, 21,900.
    Chief Lanier. 21,900. And your question about the existing 
gun laws, as you asked Chief Morse, is that you can legally, 
under the current laws you can have a revolver, a shotgun or a 
rifle registered in your home. You cannot carry it on public 
space. You cannot have a high capacity semiautomatic firearm.
    Mr. Davis of Virginia. It's clear that complying with the 
Constitution is going to cause some changes on law enforcement 
in the city. In preparing for this eventuality have you 
undertaken any effort to learn how other metropolitan areas 
handle the existence of firearms in their jurisdictions? Have 
you talked to New York and Baltimore and the like?
    Chief Lanier. Absolutely.
    Mr. Davis of Virginia. And the Council members are in 
concert with them?
    Chief Lanier. Absolutely.
    Mr. Davis of Virginia. Do you think your law that comes 
forward will be consistent with what other metropolitan 
jurisdictions have done?
    Chief Lanier. I think the Council has put quite a bit of 
effort into not only accepting comment and reaction from the 
public locally, but also from other major cities around the 
country. I think they will put forth reasonable expectations 
for gun laws in the District of Columbia.
    Mr. Davis of Virginia. And you've seen the proposed 
Childress bill? Have you had a chance to examine that or your 
staff?
    Chief Lanier. My staff, yes.
    Mr. Davis of Virginia. And what's your opinion of that? 
Could you support that? You have no position on it?
    Chief Lanier. I have no position.
    Mr. Davis of Virginia. All right. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Chief Lanier, in your written statement you described a 
chilling scenario in which terrorists use semiautomatic 
firearms to stop motorcades, after which they use explosives to 
assassinate the target. You also said this scenario has been 
attempted and has been successful around the world. How likely 
is it that something like this might happen in the District of 
Columbia?
    Chief Lanier. I can tell you from attending numerous 
dignitary protection courses and running dignitary protection 
here in the District that the Secret Service can give you a 
multitude scenarios. But the most likely scenario for an attack 
on a dignitary and motorcade about 80 percent I believe occur 
at departure or arrival areas of the motorcade. And the most 
successful attacks are by causing a chokepoint or stopping the 
motorcade. Typically that is done through the use of firearms 
to stop the motorcade by assassinating or targeting the 
security detail with firearms which will stop the motorcade and 
then make the dignitary typically in an armored vehicle 
vulnerable to an explosive threat.
    Mr. Davis of Illinois. Let me ask you, when we talk about 
semiautomatic weapons we're talking about both rifles and 
pistols. For example, the AK-47, which has been called the 
terrorist weapon of choice, is a semiautomatic assault rifle. 
That is the gun that was used in the 1989 schoolyard shootings 
in Stockton, CA that killed 6 and wounded 30. There's also the 
SKS assault rifle, which in a 2002 ATF report called the rifle 
most frequently encountered by law enforcement officers. In 
2004 SKS rifles were used to kill police officers in both 
Indiana and Alabama. Then there are the semiautomatic handguns. 
For example, there is the TEC-DC9 assault pistol. That's the 
gun that the Columbine high school killers used in their 
rampage, is that correct?
    Chief Lanier. Yes.
    Mr. Davis of Illinois. Semiautomatic handguns were used at 
the Virginia Tech massacre last year as well, which killed 33 
people and wounded 20 more. Chief, let me ask you, why are you 
so concerned about these semiautomatic weapons?
    Chief Lanier. It is literally the ability to do massive 
amounts of destruction in a very short period of time. And in 
the case of the smaller firearms, the handguns, the ability to 
conceal them; walk into a school or other sensitive place, 
building undetected is what makes it that much more dangerous 
in terms of the carnage that can be created. Obviously with a 
revolver which fires six shots versus a semiautomatic pistol 
that you can shove in your waistband that can fire 20, 30 
rounds with a high capacity magazine very quickly is a big 
concern for response time for law enforcement.
    Mr. Davis of Illinois. Chief Morse and Chief Hay, do you 
share these same concerns?
    Chief Morse. Well, with respect to protecting the Capitol, 
the existing law which prohibits firearms is one that allows us 
to do our job without some of the challenges that the district 
chief or the Park Police would do. Because as I mentioned 
before, and just to clarify, we're talking about not weapons in 
persons' homes, but vehicles and outdoors in the public space 
around the Capitol complex. And currently that is prohibited. 
With respect to outside that jurisdiction, outside our 
jurisdiction it makes it more challenging to prevent those 
types of incidents that the chief was referring to because of 
not being able to discern very quickly an incoming threat. So 
the proliferation of guns in that respect to be carried freely 
about in the public space would make it more challenging for 
the officers to discern that threat and certainly prevent it.
    Mr. Davis of Illinois. OK.
    Mr. Hay. On the 6,000 acres of National Park Service land 
within the District it's roughly 16 percent of the District. 
There are other National Park Service laws that would prevent 
the carrying of loaded firearms. Title 36 of the Code of 
Federal Regulations, Section 2.4, is a petty offense. And 
regardless of whether you were in Yosemite or Yellowstone you 
still couldn't have a firearm or here on the National Park 
Service lands of the District. So we would continue to enforce 
that law.
    Mr. Davis of Illinois. So the bottom line is that these 
semiautomatic weapons, especially the handguns, are going to 
make it far more difficult for all of you to carry out your 
duties and responsibilities with the high level of security 
that you're actually able to protect all of the individuals 
that you're trying to protect?
    Chief Morse. Well, it certainly has impacts, and that's 
what we're here to tell you about today. And the impact is it 
makes it more challenging for us to do our jobs with respect to 
protecting, for me anyway, protecting buildings and people. And 
those are some of the challenges that I just told you about.
    Mr. Davis of Illinois. Thank you very much, and thank you, 
Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Burton.
    Mr. Burton. First of all, I want to say that the Capitol 
Police and the police in Washington, DC, do an outstanding job. 
So what I'm about to say is no reflection on you, OK. So now 
you know where I'm coming from already.
    Mr. Davis of Virginia. That's the novocaine before the 
needle.
    Chief Lanier. That's never a good start.
    Mr. Burton. I had a lady that worked for me that lived 
about five or six blocks from the Capitol. A guy shimmied up 
the drain pipe and came in through the window and stabbed her 
about five or six times. And the only way she could get away 
from him was to beat him off with a pan. And we checked and 
found out we had very restrictive gun laws. And had she been 
able to have a gun in her home she may have been able to 
protect herself when she saw him coming through the window. I 
don't believe that a terrorist or a person who is going to try 
to do harm here in the Capitol is going to go try get a gun in 
Washington, DC. They're probably going to get it someplace else 
illegally and bring it into the Capitol and start shooting 
people. And the people that live in and around the Capitol up 
until now and in Washington, DC, could not have a gun. You 
couldn't carry a gun. You couldn't get a license to carry a gun 
for your own protection.
    Now, right across the river in Alexandria, Virginia you can 
get a permit to carry a gun. Now, let me just give you some 
statistical data. In Alexandria per 100,000 people they have 
5.1 murders. In Washington it's 29.1. Forceable rapes, 19.75 in 
Alexandria and 31 in Washington, DC. Robberies, 150 in 
Alexandria, 619 in Washington, DC. Aggravated assaults, 152 in 
Alexandria, 765 in Washington. Burglaries, 278 to 658. 
Larcenies, 1,784 to 2,602. And vehicle thefts 274 to 1,213. 
They have a law in Alexandria which allows you to have a gun in 
your home without any notification to the law, and you can get 
a permit to carry a gun with you. And as a result the 
statistical data shows very clearly that right across the river 
per 100,000 people you're a heck of a lot safer. Because the 
criminal knows if he comes into your home and tries to attack 
you you've got a way to respond.
    Now, this young lady I talked about a few minutes ago that 
worked for me she had nothing she could do. She would be dead 
today if she hadn't hit him in the head with a pan. It would 
have been a tragic thing. She lives down in Florida, she's got 
a family, and she's doing very well I might add.
    If you look at the national statistics, I think this is 
important, too, nationally, let me get this here real quickly, 
Washington as compared to nationally. Washington is 5.75 times 
the national average for murder; almost six times as much. 
Forceable rapes is 1.33 times worse. Robberies is 3.11 times 
worse. Aggravated assault is 2.19 times worse than the national 
average. And all violent crimes is 2.63 times the national 
average.
    So I really appreciate the hard work that the law 
enforcement officers do for us. But I will tell you this, when 
I leave the Capitol, as 500 other Members of Congress, you 
protect the leaders, the leaders have protection all the time. 
When we leave and drive one block off this Capitol we're on our 
own; 500 Members. You talk about terrorists. One of the targets 
of opportunity for terrorists would be Members of Congress. And 
when we leave this Capitol we have no security. If you live in 
Maryland, you live in Virginia, wherever, you go home alone. 
And if a terrorist wants to target you, you're dead meat 
because you have no way to defend yourself. You cannot have a 
permit to carry a gun. And so as a result you're on your own. 
And I just think that's wrong. I think law abiding citizens 
ought to be able to if they feel it's in their interest and 
their family's interest to carry a weapon they ought to be able 
to apply for and get a permit like they can in Virginia right 
across the river. And especially people of high profile who 
have a reason to carry a gun who carry large sums of money or 
whose lives are at risk because they work in this place, they 
ought to be able to protect themselves.
    We had a Senator, who one of his aides came in and had a 
gun with him, and the Senator, as I understand it, has a gun 
permit in Virginia. And I think the reason he had that gun with 
him all the time was because he felt there might be a threat to 
his life. And I think every Member of Congress if you asked 
them individually they would say they do worry once in a while 
about being attacked by a terrorist or somebody else. And so I 
think they ought to have the right to protect themselves once 
they leave this Capitol, and right now they can't. You do a 
great job while we're here, you do a great job in Washington, 
DC, but individual citizens who abide by the law ought to be 
able to protect themselves, and especially elected officials in 
this Capitol.
    Chairman Waxman. Thank you, Mr. Burton.
    Mr. Tierney. Ms. Watson.
    Ms. Watson. Thank you so much for this very, very necessary 
and important hearing, Mr. Chairman. I understand the bill, as 
it's currently drafted, individuals could buy and own firearms 
without registering with the Metropolitan Police. And I'm 
addressing this to Chief Lanier. In your written statement you 
said you have grave concern, also your verbal statement. And 
can you explain why you have this grave concern and related to 
this building that we're in right now?
    Chief Lanier. Again, I think that the hallmarks of trying 
to prevent any crime from happening, including a terrorist 
attack, is having some layered measures of protection. For most 
terrorists the risk of failure is worse for them than the risk 
of dying and carrying out an attack. So each level of security 
measures we have in place that they have to go through that may 
cause them to be detected is a security measure that serves as 
somewhat of a deterrence. By having to register a firearm you 
typically would have to come in and prove your identity, so 
that adds another layer of risk for a terrorist. If you remove 
that registration process and the other laws around gun 
possession and carrying in the District you now have removed a 
lot of the illegal acts that a potential terrorist would have 
to go through, elevating the risk of detection and being 
caught, thus deterring their attack long before they get to 
that attack. So I think that those are necessary measures to 
send the message that there is layered security in terms of 
Washington, DC, as the Nation's Capital, and the registration 
process and some laws with gun control are necessary.
    Ms. Watson. Now, this is what I understand in your current 
firearms registration process. Your department, and I'm just 
repeating, also performs a ballistic identification procedure 
during which it fires the weapon and retrieves a spent 
ammunition to obtain a ballistic fingerprint of the gun. This 
allows you to identify and track guns used in crimes, is that 
correct?
    Chief Lanier. Yes.
    Ms. Watson. So how would eliminating--and I want to ask 
this of my colleagues too that are in support of the current 
bill--how would eliminating the ballistics fingerprinting 
process affect the work of your officers? And would you lose--
if you lose that resource would it endanger all of us that are 
in sensitive places?
    Chief Lanier. Very much the ballistics fingerprint of a 
firearm has assisted us in tracking down, locating and solving 
numerous violent crime cases. But it is--essentially what it is 
described as is a ballistic fingerprint of that weapon. So when 
a firearm is discharged, whether the firearm is actually 
recovered or not, we can tell from the expended shell casing or 
the round that's fired from that gun, if that gun is 
preregistered with a ballistic fingerprint on file, which gun 
fired that round. So yes, it is important for us, not only for 
prosecution of cases which is the ultimate goal, but also for 
us to identify potential suspects that may have used that 
firearm in the commission of a crime.
    Ms. Watson. In addition to the ballistics fingerprinting, 
the department has a process which includes a background check. 
Now, you'll hear arguments that the law abiding citizen needs 
to have a gun. You're not a criminal until you break a law. And 
so how do we know if a person is mentally ill but walking the 
streets, has an intention to come in here and shoot at one of 
us because they didn't like a piece of legislation that we 
introduced or supported, and this person has no record? We have 
Members of Congress that are in prison today, and they 
certainly were law abiding until they broke the law. So how do 
we know who registers to get a gun and to use the gun unless we 
have everyone register the gun? Can you comment?
    Chief Lanier. That's exactly why we have the registration 
process that we have. And those who have been convicted of a 
crime of violence or have prior weapons charges, those who have 
been voluntarily or involuntarily committed to a mental 
hospital within the past 5 years, those that have been not 
convicted--convicted of a crime of violence, to include 
domestic violence, all those things are looked at in our 
background process for exactly that reason, to try and 
eliminate potential persons from registering firearms that have 
potentially used them illegally. And in the scenario given just 
a moment ago, you can register a firearm legally if you do not 
have that, if you pass that background in the District of 
Columbia. So you do have the right to even possess a handgun in 
your home right now under the current laws to protect yourself 
in your home if you pass that background.
    Ms. Watson. Well, you know, without registration we don't 
know who is prohibited from driving because they need glasses. 
And I'm wearing glasses right now to see you. And if we don't 
do a background check he might not have the sufficient vision 
to obtain a driver's license and be driving a car. So we 
operate in the blind.
    And in closing, I just want to say that the only purpose in 
eliminating the registration system seems to reduce--is to 
reduce the visibility and control of a firearm in the District. 
I just think it's a bad idea. In protection of all of us in 
sensitive places, we need to know who has a weapon.
    Thank you very much.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I'm going to try and 
narrow very quickly what we're talking about here. Mr. 
Campbell, the Supreme Court decision didn't affect you in any 
direct way, did it?
    Mr. Campbell. No, sir.
    Mr. Issa. Mr. Hay, the Supreme Court decision did not 
affect you in any direct way, did it?
    Mr. Hay. No.
    Mr. Issa. OK. Mr. Morse, the Supreme Court decision did not 
affect you in any direct way, did it?
    Chief Morse. It has not.
    Mr. Issa. Ms. Lanier, Chief, it did affect you. You had a 
law that was found to be unconstitutional that for decades had 
violated an American's second amendment right, isn't that true?
    Chief Lanier. It impacted my capacity because I have to 
implement new regulations.
    Mr. Issa. You were implementing the law. Your department 
had arrested, convicted and jailed people for a law that now is 
unconstitutional as it was.
    Chief Lanier. The District has already revised those 
regulations in the temporary process.
    Mr. Issa. Let's make sure we keep it narrow. The Supreme 
Court struck down a law you were implementing on the day they 
struck it down. So you were held that for four decades you had 
violated people's second amendment rights by both, I believe, 
arbitrarily and capriciously limiting registration and by 
outright limiting the people's ability in their own home to 
protect themselves with a handgun.
    Now, is that your understanding of the Court decision or 
are you not familiar with the Court decision?
    Chief Lanier. I'm familiar with the Court decision. I 
understand the changes that are required by the Court, and we 
are in the process----
    Mr. Issa. So all this discussion today about heavy weapons, 
assault rifles, all of this, is the usual anti-gun stuff. The 
Supreme Court said in no uncertain terms that Americans, both 
in States and in the District of Columbia, continue to enjoy 
the constitutional right under the second amendment in their 
own homes to protect themselves, including with the use of 
handguns. They held that you were able to have registration as 
long as it was not arbitrary or capricious, which I question 
the 23 registrations. But having said that, we're going to 
assume that it's not arbitrary and capricious. So this entire 
hearing here and all the discussion and discussions about 
assault rifle, and repeatedly the statement about how AK-47s 
with large magazines and attacking motorcades, isn't it true 
that what we're really talking about as the city of Washington, 
DC, has to do is simply to structure a reasonable ability for 
people to purchase, register and keep in their own home 
handguns? That is the immediate effect of the Supreme Court 
decision, and that is what we have oversight over, isn't that 
true?
    Chief Lanier. Yes.
    Mr. Issa. And are you prepared today to ensure that process 
goes forward, and are you able to protect the citizens of 
Washington, DC, every bit as well if law abiding citizens in 
their own home have registered weapons?
    Chief Lanier. Law abiding citizens in the District of 
Columbia have been able to register weapons in their home for 
many, many years and currently are registering firearms and 
handguns in their home for self-protection.
    Mr. Issa. Ma'am, we were only talking handguns, and 
handguns were what the Supreme Court said you had violated 
people's second amendment rights in the District of Columbia by 
eliminating that ability.
    Chief Lanier. And that's been rectified.
    Mr. Issa. OK. Now, I'm just going to just take one more 
thing, because I think you should be held to task. I know 
people love to talk about how great the police are, and I could 
do that too. But this is the murder capital of America off and 
on.
    Chief Lanier. That's not true.
    Mr. Issa. This is the murder capital of America off and on. 
You have years in which you are, years in which you're not. 
This is an area in which gun violence has been a problem for 
four decades, isn't that true?
    Chief Lanier. Gun violence is an issue in every major city 
in the United States.
    Mr. Issa. But isn't the District of Columbia among the 
cities in the top three-quarters, let's say, in any given year 
of people who are using guns to kill other people?
    Chief Lanier. I don't know that statistic off the top of my 
head.
    Mr. Issa. Well, I guess my question to you is if the 
District of Columbia, as I will say here, has been a place in 
which gun violence has been a big problem for those four 
decades in which law abiding citizens never were allowed to 
have pistols in their house, then isn't it just possible that 
allowing the law abiding citizens to protect themselves with 
pistols in their own home could actually do you help, not harm, 
when it comes to reducing gun violence by those who have 
already been carrying these guns illegally and using them in 
the District of Columbia? And hopefully you will go back and do 
the research to realize that the problem is that people with 
handguns, as was said earlier, they're all the bad guys or 
they're law enforcement, but there's been a lot of them here 
while the law abiding citizen hasn't been able to have one.
    Chief Lanier. I was asked to come here and talk about the 
implications of the bill on homeland security in the Nation's 
Capital. If you want to have a discussion about what's behind 
violent crime in Washington, DC, and other cities around 
America, it's a much different discussion and there's a lot of 
other factors besides gun ownership. But you can register a 
firearm in the District of Columbia for self-protection in your 
home.
    Mr. Issa. Thank you, Chief. And since the limit of our 
jurisdiction is the District of Columbia and not homeland 
security, that's why I was trying to narrow on that. And thank 
you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Issa.
    Ms. Norton.
    Ms. Norton. That is the limit of our jurisdiction. And H.R. 
6691 of course does not focus on gun violence in big cities 
like the District of Columbia. And that's the work of this 
Chief, not your work, not this Member's work. And I want to 
focus on what H.R. 6691, which is the bill filed by Members on 
the other side, would do with respect to jurisdiction that we 
are accountable for. I would like to do it the old-fashioned 
way, going back to my former profession, through hypotheticals 
and ask you some hypotheticals. They turn out not to be so 
hypothetical because Chief Morse and Chief Hay have just talked 
about confiscating guns that they found in public. Now, under 
current law it's illegal to carry a loaded weapon in public in 
the Nation's Capital without exceptions, isn't that correct?
    Chief Lanier. Correct.
    Ms. Norton. Now, if H.R. 6691 becomes legal, forget for a 
moment what effect it will have on a high crime city like the 
District of Columbia, like big cities in California, like big 
cities throughout the United States, think for a moment through 
this hypothetical what effect it will have right here in the 
Nation's Capital where these officers are charged with 
protecting federally protected people. I want to ask you what 
you can do now and what you would be able to do if H.R. 6691 is 
passed concerning carrying loaded guns in public. You 
mentioned, Chief, the serious issue you always face in the 
President's inaugural parade. Now, if H.R. 6691 passed you 
could have a long rifle, a semiautomatic SKS rifle with you, or 
let's take an AK-47. Now, what could you do now and what could 
you do to someone simply standing with that long rifle to view 
the parade?
    Chief Lanier. Right now they would be placed under arrest, 
and it's legal to possess in the District of Columbia.
    Ms. Norton. Well, suppose a person has a long rifle after 
H.R. 6691 passes; what would you do with an SKS and an AK-47 
visible for you to see at the President's inaugural parade?
    Chief Lanier. It's legal to possess. There's not much that 
we can do.
    Ms. Norton. How could you secure that inaugural parade, I'm 
asking you?
    Chief Lanier. It's going to be very difficult.
    Ms. Norton. Let's take a large protest we have here. 
They're so common. We had them with the International Monetary 
Fund. I don't pick them out, or the World Bank protest, because 
they are any more likely to have guns than anybody else. I have 
no information, but because it was so huge. I would like to ask 
you about those. I know they were hard to control.
    You have spoken about concealable weapons, concealable 
weapons. Let's take TEC-9s. That's concealable, Uzis, 
concealable. Or for that matter the long guns, such as the ones 
I previously asked about. Under H.R. 6691 is it conceivable 
that you would have at such a large protest both AK-47s in full 
view and conceivable Uzis or TEC-9s that you couldn't even see 
but which today are illegal in the District of Columbia?
    Chief Lanier. That's possible, yes.
    Ms. Norton. Is there anything you could do in one of these 
mass protests? I'm leaving aside the almost always peaceful 
meetings at Labor Day or July 4th, but one of those protests 
where people are moving about. Could you secure the World Bank, 
the Monetary Fund, the nearby Federal facilities or the 
District of Columbia itself if people were able to carry 
concealable fully loaded semiautomatic guns or fully loaded 
unconcealed military assault weapons at these large protests?
    Chief Lanier. It would be extremely difficult. I can't 
imagine.
    Ms. Norton. Mr. Chairman, I just want to point out, there's 
a first amendment right to be at these protests, just as the 
second amendment right has been cited. Here we give the police 
an impossible dilemma.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Ms. Norton.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. And I guess I'd kind 
of be the unpopular person in many people's eyes as the author 
of the amendment overturned the D.C. limitation on the right to 
bear arms in the District and as also having worked the broker 
agreement that I believe will once again protect those rights.
    I didn't get a chance to make an opening statement, so I 
want to make a few comments here.
    Home rule does not give an area the right to overturn 
constitutional rights. That's what the Supreme Court 
determined. It doesn't give Washington, DC, or any city the 
right to overturn free speech, it doesn't give them the right 
to overturn freedom of religion, it doesn't give a city the 
right to overturn the right to bear arms or any civil right. 
This was much the argument that southern States had. When they 
didn't like a Supreme Court ruling they tried to reinstitute 
around the ban, as D.C. did in this case, come up with a law 
that went around the Supreme Court restriction.
    Now, the most important thing in the Supreme Court decision 
was something we've debated in the United States for years, and 
that's what's a militia. A militia is not the military. The 
militia are individuals' right to bear arms. The court has 
permanently decided that. They gave flexibility for cities to 
work in different areas and explicitly said in the court case 
that there are some things that cities can continue to do. But 
when D.C. came back with a law that says you have to be under 
imminent danger, what does that mean; the gun is blazing, that 
the gun is pulled, that somebody has busted your door down, 
that you just live in the city? I mean, what an absurd standard 
and an insult to the rights of the Court--the rights of the 
American people. Now, we had a little bit of fencing a little 
bit ago about how bad D.C. crime is. Murder capital 7 of the 
last 9 years. You can state whether it's improved. Yes, some of 
the murders have gone down. Murders have gone down all over the 
United States pretty much in every city because we've locked 
criminals up. Now as they come back out some rates are moving 
again. But there are multiple things, and what is clearly 
proven is that the cities that have the gun laws haven't had 
any impact on it. In fact, the cities with the gun laws 
generally have higher rates of murder. It's counterintuitive. 
Why? Because if you disarm the citizens, if you tell them, as 
the D.C. ban says, that you have to have your gun locked up so 
when a criminal comes into your house under imminent danger 
you've got to go find the key, unlock it, put your gun 
together, then go find the bullets, how in the world are you 
supposed to protect your family? And that is a clear violation 
of the rights, and that's what the Court tried to address. And, 
in effect, you have armed criminals in neighborhoods and 
roaming this city because citizens they know haven't been able 
to protect themselves. And the Washington Post had a very 
interesting article years ago when I was on staff working with 
juvenile delinquency. Nobody bought their guns even in the gun 
stores. They robbed people. A couple of them in the juvenile 
center took guns from police officers. Unless you're going to 
have some kind of an international U.N. Law restricting this I 
don't know how you can isolate and claim all the things you're 
claiming about, oh, if we just had this gun law we wouldn't 
have the people doing assassinations. Reagan got shot during 
your gun law. But we wouldn't have all this type of threats to 
everybody if all we did was banned it here in D.C. It's an 
absurd principle. You can't.
    And by the way, there's another assumption here. We're 
talking here like, well, these guns kind of walk into a home 
all by themselves and start firing. The best way to control 
terrorists are through FISA, through intelligence tracking, 
through what they do at the Nationals stadium. Quite frankly, 
one of my friends and a company in my District helps provide 
and plan security for stadiums. The most critical thing is 
having intelligence. Yes, you have cameras, you have police 
officers around to scare them off, but you need to know where 
the risks are and plan as much as you can. It's not clear that 
the laws work. As we heard Mr. Issa say a little bit ago, three 
of you aren't even impacted this. This shows what a political 
hearing this is. Three of you aren't impacted. And the fourth, 
the Chief, quite frankly, aren't you a political appointee?
    Chief Morse. I am not. I went through a selection process.
    Mr. Souder. Not the Park Police. I mean Chief Lanier, 
aren't you a political appointee?
    Chief Lanier. I've been a member of the Metropolitan Police 
Department for 18 years appointed by the Mayor.
    Mr. Souder. Pretty much that's what it should be. When a 
mayor wins an election they pick somebody who reflects their 
views. But you're a political appointee reflecting the 
political views. And police officers by the way disagree on the 
subject, I'm not suggesting they don't, but that you're 
reflecting the political views.
    This is a political hearing today. This isn't about 
protecting constitutional rights, it's not about legislation. I 
mean, if we're going to have a bill, as I'll point out, that 
looks into whether or not we're more secure clearly this gun 
law has failed in Washington, DC. We should be looking to 
figure out how to work it and how to make citizens safe, not 
how to reinstitute one of the most failed laws in America. It's 
tough to have a law that can fail more than being a leader year 
after year in murders. As former Mayor Barry said, it's a 
pretty safe place other than the murders.
    Chairman Waxman. Thank you, Mr. Souder. Your time has 
expired.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
your testimony. Chief Lanier, what could people do before the 
Supreme Court's decision? What could D.C. residents do to 
protect themselves in their homes?
    Chief Lanier. D.C. residents have always had the ability to 
register firearms for self-protection in the home. They could 
register a shotgun or a rifle for self-protection in the home 
prior to the Heller case.
    Mr. Sarbanes. Prior to the Supreme Court decision. So it's 
not like they were completely without any protection as has 
been suggested?
    Chief Lanier. That's correct.
    Mr. Sarbanes. What can they do to protect themselves if you 
were to simply do what's required to comply with the Supreme 
Court's decision?
    Chief Lanier. That is what's under way now and currently in 
place. You can now register a handgun for self-protection in 
the home as well. I think the City Council and the 
administration has been working hard to come up with final 
legislation. What is in place right now is only temporary, and 
I think when that final legislation is proposed it will be in 
full compliance with the Heller decision.
    Mr. Sarbanes. In your professional judgment, how much 
additional protection would be available to people in their 
homes if the current limitations were completely wiped away? In 
other words, how much extra do you get? I mean do you view it 
as providing a lot of extra protection if you can keep a 
semiautomatic weapon, for example, in your possession in your 
home?
    Chief Lanier. I think the ability to have a handgun in your 
home for self-protection or shotgun or rifle is sufficient for 
self-protection in the home.
    Mr. Sarbanes. It sounds from the testimony like you'll be 
able to pretty much effectively do the job of handling the 
special dimensions that the District of Columbia presents in 
terms of the dignitaries and Federal officials and others, 
you'll be able to do that job pretty effectively even as you 
comply with the Supreme Court's decision, right?
    Chief Lanier. Absolutely.
    Mr. Sarbanes. And I've also heard that you have high 
anxiety about whether you could do that job effectively if the 
provisions of H.R. 6691 were implemented?
    Chief Lanier. Yes, sir.
    Mr. Sarbanes. Can you just describe, I mean take a rally or 
some other event, and let's assume that H.R. 6691 went through, 
because you know we assume that things that drastic and ill-
advised won't happen, but sometimes they do. So how would your 
department have to kind of reorient itself around a particular 
kind of event or special circumstance that you deal with now if 
you were operating under those kinds of conditions?
    Chief Lanier. I think it was alluded to earlier by Chief 
Morse, the first and most significant step is the average 
member of the Metropolitan Police Department, there's 4,000 of 
us, there's about 15 years on, 15 years of training the same 
way, policing the same way, same laws, significant undertaking 
in completely revising the way our officers train, think and 
perform out on the street, which is a concern for all of us, 
because it does change for all of us. But for any large event, 
as I said, the easiest thing to kind of relate to is the large 
special events that happen here all the time. There are things 
from marathons all the way to just annual celebrations like the 
Fourth of July. We typically will secure those events with 
perimeters that are snow fencing, bike racks. And we try to use 
the checkpoint process to eliminate the explosive threat from 
getting into a large crowd, 100,000 people on the Mall for the 
Fourth of July. The change in that security is drastic because 
an automatic firearm, an AK-47, the snow fencing and the 
checkpoints are useless because someone outside that perimeter 
could shoot into the crowd. And just by mere nature of the 
backdrop as Washington, DC, I think that is a potential 
reality.
    Mr. Sarbanes. If H.R. 6691 were implemented and sort of 
wiped away the current restrictions, how would that compare to 
the restrictions that exist in other cities across the country?
    Chief Lanier. Well, actually, it would make it less 
restrictive. From what I understand it, you can purchase a 
weapon in another jurisdiction and bring it into the District 
of Columbia. So that in itself is less restrictive and I think 
a huge concern for us in terms of trafficking of firearms and 
being able to know what it is that is on our streets.
    Mr. Sarbanes. OK. Thank you.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Sali.
    Mr. Sali. Thank you, Mr. Chairman. Chief Lanier, we're 
talking today about homeland security risks, so we're talking 
about really a terrorist type event, correct? That's what you 
came prepared to talk about?
    Chief Lanier. Yes.
    Mr. Sali. I want to talk about four different categories of 
people. Every day when I walk between my office and the Capitol 
building I see lots of people carrying guns. They're your 
police officers. And you're not worried about any of them being 
involved in a terrorist attack, correct?
    Chief Lanier. No.
    Mr. Sali. And the law abiding citizens in the District of 
Washington, DC, you're not really concerned about them being 
involved in a terrorist attack, is that correct?
    Chief Lanier. Correct.
    Mr. Sali. And then we have common criminals who are 
involved in all manner of criminal activity that we've talked 
about today. Your level of concern about them being involved in 
a terrorist type attack is not typically really great, is it?
    Chief Lanier. Well, it depends but it's not what I was 
testifying about today.
    Mr. Sali. OK. But if we have a real live legitimate person 
who is intent on committing a terrorist act, that's a person 
that you're really concerned about?
    Chief Lanier. I think there's two categories of those types 
of person. The lone wolf person who maybe wasn't committed to 
committing a terrorist attack and somebody who is under the 
influence of drugs or alcohol.
    Mr. Sali. Let's group those together. These are the people 
you're worried about. And you don't have any expectation 
whatsoever that any of the people in that last group would go 
and register a handgun of any type, I don't care if you 
prohibit or include what firearms. None of them are going to 
come register anything under the law as it exists today and the 
law as we pass it here or the law as it has existed, that's 
correct, isn't it?
    Chief Lanier. I can only tell you that from what I 
understand even the al Qaeda training manual recommends that 
those planning to carry out a terrorist attack do everything 
they can to avoid detection by violating laws. So they're 
encouraged strongly to not violate laws from traffic laws to 
any other law that would raise a level of suspicion.
    Mr. Sali. So your testimony before this committee is that 
you do have an expectation that terrorists will come register 
their guns?
    Chief Lanier. I didn't say that. I said that the level of 
detection that is recommended and that is trained in 
terrorists, that we are aware of, is to not raise the suspicion 
of law enforcement by violating laws. I think to remove any 
kind of process to raise that level of suspicion would be ill 
advised.
    Mr. Sali. Well, if that's the case, isn't the--I mean we 
have a lot of activity going on in Iraq and Afghanistan and 
Pakistan. Is the answer there not to engage in all of the 
intelligence work that we're doing, spending an awful lot of 
effort there and the military effort, just go pass some gun 
registration laws and that will get the job done, you're not 
suggesting that?
    Chief Lanier. Certainly not.
    Mr. Sali. So the point is really there's no real 
expectation that terrorists are going to come and register any 
weapons of any kind no matter what the law is for the District 
of Columbia, correct? That's really what we're getting to.
    Chief Lanier. I think by removing the process and having no 
visible deterrent, again not the hallmarks of what the 
terrorist prevention motto of this country is; detect, deter 
and prevent. And I think by removing that registration process 
you really are removing one of those barriers or levels of 
security.
    Mr. Sali. Well, let me ask you this. The overwhelming 
majority of even common criminals when they commit crimes, 
those guns are not registered with the District of Columbia are 
they?
    Chief Lanier. That's correct.
    Mr. Sali. So once again, if the common criminals don't 
generally do that, there's no real expectation that terrorists 
would register any weapons?
    Chief Lanier. Many of those guns fortunately for us are 
taken off the streets when they're arrested before they commit 
a crime.
    Mr. Sali. Well, let me ask you this. If we're not concerned 
for terrorist events, or even just generic criminal events, 
with law abiding citizens committing those acts, because they 
obey the law, what efforts is your department taking to get at 
those criminals and those terrorists beyond registration?
    Chief Lanier. We can spend hours discussing the impact of 
what my department has been doing for the past several years, 
along with all these other departments here, to get at the 
terrorist threat through those same measures; detection, 
prevention and deterrence.
    Mr. Sali. OK. But the rate of murders in the capital city 
for our Nation is quite high compared even with most other big 
cities across the Nation, do you agree with that statement?
    Chief Lanier. Our rate of murder is on average with many of 
the large cities in the United States.
    Mr. Sali. It's one of the highest in the Nation, you would 
agree with that, correct?
    Chief Lanier. Currently we are I believe 10th behind nine 
other major cities in the United States.
    Mr. Sali. So I guess my point is, if you're worried about 
terrorists and you're worried even about common criminals to 
some degree, how is it that a registration law in the District 
of Columbia is really going to make a significant difference 
when you've testified today that even for common crimes most of 
the guns that are involved there are not even registered with 
the city?
    Chief Lanier. I don't think I suggested that the 
registration process is going stop a terrorist attack.
    Mr. Sali. Well, I'm not saying that you suggested that it 
would stop a terrorist attack. But you've expressed concerns 
about the need to make sure that the types of weapons you talk, 
semiautomatic weapons, that somehow those are going to increase 
the risk of a terrorist attack if they're in the hands of law 
abiding citizens.
    Chief Lanier. My testimony today is that there should be 
some reasonable measures put in place for the District of 
Columbia that is unique to other jurisdictions. With those 
measures being in compliance with the Heller decision, I think 
there should be some measures to regulate that within the 
District of Columbia because of the unique threat that is faced 
here.
    Mr. Sali. Mr. Chairman, I see my time is up.
    Chairman Waxman. Thank you very much, Mr. Sali.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I would just like to go 
back and just remind people that the Supreme Court, and on the 
decision I'm primarily citing from pages 54 and 55. Like most 
rights, the second amendment right is not unlimited. It is not 
a right to keep and carry weapons whatsoever in any matter 
whatsoever and for whatever purpose. And it goes on also to 
state that the Court finds support in historical traditions of 
prohibiting and carrying of dangerous and unusual weapons.
    Chief Lanier, I would like to ask you about a particular 
lethal type of weapon. It's a long range high powered 50-
caliber rifle that's used by military snipers. These weapons 
can penetrate armor and bullet proof glass, they can bring down 
helicopters or low flying planes, and they are used by the 
armed forces at 35 different countries. These weapons are so 
lethal to human targets over enormous distances. A few years 
ago in Afghanistan, for example, a Canadian sniper killed a 
Taliban shoulder from a mile and a half away. And I've been 
told that's the distance between the Capitol building and the 
Lincoln Memorial.
    Chief, there are currently many restrictions on owning 
weapons in Washington, DC. They have to be registered and they 
can't be carried in public. And semiautomatic models are 
completely banned, for example, like the 50-caliber rifle I 
just described, is that correct?
    Chief Lanier. That's correct.
    Ms. McCollum. And under the NRA bill H.R. 6691 these 
safeguards are repealed. There would be no registration, these 
weapons could be carried in public and they could be carried 
fully loaded with semiautomatic clips. I ask Chief Lanier and 
Chief Morse and Mr. Hay, are you concerned about this?
    Chief Lanier. Obviously that would be a concern for any law 
enforcement officer.
    Ms. McCollum. Mr. Morse.
    Chief Morse. I would be concerned that someone would have 
that type of weapon and be adverse to our security.
    Ms. McCollum. Mr. Hay.
    Mr. Hay. Yeah, the 50-caliber rifle brings up all kinds of 
concerns for us as well.
    Ms. McCollum. There's a picture up here right now, and 
they're from a company, a company that's advertising 50-caliber 
sniper rifles on the Internet. As you can see, this company is 
promoting a product and it's demonstrating the destructive 
force of this weapon. In this picture the company is showing 
how the weapon can pierce the window of an aircraft cockpit. In 
fact I would like to read some of the supporting advertisement 
that goes along with it.
    So we took the 50-AE and the AR-15 to a range to make some 
pudding out of some fairly formidable targets, a McDonnell 
Douglas DC-9. That is what they chose to show what they could 
make pudding out of.
    So I ask the witnesses again, what do you think about this? 
Does it concern you that a 50-caliber sniper rifle could be 
used to bring down an aircraft, let alone in H.R. 6691 it would 
be perfectly legal to carry thisfully loaded in the District?
    Chief Lanier. Yes.
    Chief Morse. Yes, that's a concern.
    Mr. Hay. Yes, we too would be concerned about firearms. As 
I mentioned earlier, we would still have Title 36 prohibition 
against any firearms, to include the 50-caliber.
    Ms. McCollum. The State of California has also recently 
recognized the destructive force of these weapons and has 
banned them. According to Governor Arnold Schwarzenegger, who 
supported the bill, the 50-caliber rifle is a military type 
weapon that presents a clear and present danger to the general 
public. I would ask you, do you agree with Governor 
Schwarzenegger?
    Chief Lanier. I think a weapon of that caliber in the 
general public is a danger, yes.
    Chief Morse. A weapon of that caliber certainly in the 
hands of someone who intends to do harm is of grave concern to 
me.
    Mr. Hay. Yeah, it's really the same answer as the last 
time. We're going to take enforcement action on firearms 
regardless of the caliber.
    Ms. McCollum. Well, Mr. Chair, I would like to thank you 
for holding this hearing today. H.R. 6691, supported by the 
National Rifle Association, would prohibit the District of 
Columbia from doing exactly what the State of California has 
done by banning these weapons. It's not only an insult to the 
people in the District, it is a potential danger to anyone who 
lives or works or visits the city.
    Mr. Chair, I yield back.
    Chairman Waxman. Thank you very much.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I think the level of 
hyperbole here has reached a new high in terms of the 
suggestions about what would and would not be allowed under 
H.R. 6691. I would really like for somebody to show me in the 
legislation where they can point to what is being alleged here. 
I think that what my colleague Mr. Burton said needs to be 
repeated over and over and over again in this hearing. Clearly 
the D.C. gun law has failed in terms of trying to hold down the 
crime in this city, since it is one of the highest crime cities 
in the country. And I find it really astonishing that the 
elected officials and appointed officials here would continue--
want to continue practices that clearly do no good for the 
citizens and in fact create harm. You are appointed and elected 
to protect the citizens. And when you continue to do things 
that clearly don't bring that result it's hard for me to 
understand.
    I think it was Einstein who said stupidity is continuing to 
do the same thing and expecting a different outcome. So 
continuing to try to ban citizens from owning the guns that the 
Constitution says they can own and expecting a different 
outcome, I really find that unbelievable.
    And the comment by the Chief that it is sufficient self-
protection to have a handgun, what an arrogant comment to make 
about what the citizens of this country ought to be doing. The 
D.C. City Council should decide and this Congress should decide 
what is sufficient self-protection when we have a Constitution 
that clearly states the right of the citizens to keep and bear 
arms shall not be impinged by the Congress of the United 
States. I find that incredible.
    What I would like to know is what else are you doing to try 
to hold down the crime rate or to cut down the crime rate in 
the District of Columbia other than banning guns, which has 
clearly not worked? And my question is only to the Chief. 
Because as somebody else has pointed out, the three gentlemen 
here are simply window dressing for this event. It's only the 
Chief who should be answering this.
    So would you please tell us, is the District of Columbia 
doing anything else to try to reduce the crime rate here?
    Chief Lanier. First I would like to clarify one point. I 
would like to clear up misunderstandings. I don't write law. I 
enforce it. That is my job. Political appointee, designee, 
career law enforcement officer. My job is to enforce law. I 
don't make it.
    Second, I would like to say, in terms of using the gun ban 
or whether guns are allowed or not allowed as the sole measure 
of what is behind crime or violent crime in America I think is 
absent additional thought that is needed. There are a lot of 
things that go into violent crime. Any one factor, whether we 
have a gun law or don't have a gun law, is not going to turn 
around people who carry out violent crimes overnight. It is a 
variety of factors that impact violent crime in this city and 
every other jurisdiction in the United States. So I just want 
to make sure that you understand that, 18 years in policing, 
there is a lot of things that impact why somebody would carry 
out a violent crime. It is not just whether they have access or 
don't have access to a firearm.
    In terms of addressing what else we are doing to deal with 
crime in the District of Columbia, there is--again, I could 
spend hours discussing all of the things that we are doing in 
the District of Columbia from a variety of different agencies 
other than law enforcement. Much of the puzzle of what needs to 
be solved to deal with violent crime in the city is not solely 
law enforcement. There is a variety of social issues that have 
to be dealt with as well. And I think the administration has 
put the effort behind that through the rest of the agencies in 
the District. So I think that will require a separate hearing 
for me to sit and discuss all the things that we are doing to 
combat violent crime.
    Ms. Foxx. Well, I would be satisfied if you just gave me 
two that are in your department.
    Chief Lanier. Give you two? As a government, the mayor has 
put forth in the focus improvement areas in the city where we 
are taking out social services, drug and alcohol treatment, 
some of those other things that are actually driving crime 
issues around the city, taking those out in the neighborhoods 
where those crimes are occurring. And it is having a huge 
impact on violent crime.
    In fact, I should at least get my own commercial in: Armed 
robberies are down 15 percent this year, and shootings are down 
12 percent. We are right now below our homicide rate for the 
previous year. And I think we are starting to have some impact 
with some of our crime strategies and initiatives around the 
District of Columbia and throughout the region.
    We also are doing multiple programs within the police 
department to seek out those who are repeat violent offenders 
and target those repeat violent offenders. So I assume that 
would be sufficient, giving you a governmentwide strategy as 
well as a department-wide strategy.
    Chairman Waxman. The gentlelady's time has expired.
    I am impressed you are able to figure out things to do that 
the Congress didn't tell you to do right here at the self-
government of the District of Columbia. I commend you on it.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing.
    I think it would be fair to articulate the difference 
between the sides here by saying that we on this side do not 
believe that the protection of constitutional rights of 
citizens to be safe in their homes necessarily requires or is 
served by a law that allows all citizens to be able to carry 
loaded AK-47s in public within the District. That is not a fine 
point, but that is the one we are discussing here.
    Chief Morse and Chief Lanier, I would like to ask you about 
security right here on Capitol Hill. And it is my understanding 
that there is a Federal law that prohibits people from carrying 
firearms on the Capitol grounds, section 5104 of Title 44 of 
the U.S. Code. So regardless of the law off the Capitol 
grounds, this Federal law does in fact create a prohibition so 
that if you come into the area near the Capitol or the House 
and Senate office buildings with a gun, you are breaking the 
law. Is that correct?
    Chief Morse. That is correct.
    Mr. Lynch. OK. I am going to ask you some obvious 
questions, and I apologize for that, but I think, in light of 
the previous questions, it is necessary. We all know that the 
threat of gun violence on Capitol Hill is not a theoretical 
question. As a matter of fact, I know that several weeks ago I 
joined both of you in a 10-year anniversary. Back on July 24, 
1998, an assailant stormed the Capitol and shot and killed two 
of your brave men, Chief Morse, Detective John Gibson and 
Officer Jacob Chestnut. And just to point out the difficulty 
that your folks face, the Capitol Police as well as all of our 
law enforcement here, last Friday, we had another incident, a 
gun incident here at the Capitol. And I have some--you could 
look at the screen here. Your officers, it is my understanding, 
arrested a man with an AK-47 and a grenade and other materials 
on the corner of Second Street and Independence Avenue, right 
outside the Capitol. I know that all my colleagues in Congress 
received multiple alerts on our BlackBerry devices here, and 
the area was cordoned off. And it was an excellent job on the 
part of all of law enforcement up here on the Capitol, and we 
really appreciate it. But what I am trying to do is use this 
incident as an illustration of the difficulty in administering 
the law that the NRA and my colleagues on the other side of the 
aisle there proposed.
    Now, there is also a diagram that I have, this is obviously 
at the foot of the Capitol--let's see, no, that is not it. How 
about the map? There is a map. There you go. OK. That red dot 
that you see is the area of the incident that occurred on 
Friday, where the gentleman was grabbed with the AK-47 and the 
grenade. That is right on the border of what we would call in 
this case the federally administered Capitol grounds. That 
yellow line that you see underneath the red dot is actually the 
border. So, correct me if I am wrong, under the law that is 
being proposed by the NRA, an individual could stand on one 
side of the street off of the Capitol grounds with an AK-47 
legally, a loaded AK-47, and not be in violation of the law. Is 
that right, Chief Lanier?
    Chief Lanier. That is correct.
    Mr. Lynch. Chief Morse, you got the same read on that?
    Chief Morse. That would be correct.
    Mr. Lynch. OK. Now I want to ask you an obvious question. 
How does that create difficulty for you? And how does that put 
your folks at risk in trying to administer, you know, a 
regulation or a law like that in the circumstances that we find 
ourselves here in the Capital city of the United States?
    Chief Lanier. Obviously, there are a lot of events that 
occur on the grounds of the Capitol. There are protest marches 
and concerts and other things that occur on the Capitol 
grounds. So, technically, to be outside of that line and 
standing outside, if this was passed, you would not be in 
violation of the law but still in direct relationship to the 
Capitol grounds.
    Mr. Lynch. OK.
    Chief Morse.
    Chief Morse. One of the impacts or implications to my 
agency would be that our officers would need to enforce or be 
vigilant about two different laws. So, in one instance, under 
the Title 40, 5104, they would be able to make an arrest in 
that case, and then--and certainly see that perhaps as a 
threat, depending upon the actions of the subject. With regard 
to outside our jurisdiction, or just outside our jurisdiction, 
or within the extended jurisdiction zone the Capitol Police has 
responsibility in, we would in fact honor a different law. So 
there would be a training implication and certainly one that we 
would have to be very proficient in because it is an officer 
safety issue as well as a public safety issue. So we would have 
to be well versed on the, as we are, on the primary 
jurisdiction and where that starts and stops as well as the, 
you know, requirements of the law.
    Mr. Lynch. OK. Thank you.
    Mr. Chairman, I am going to yield back, but I do want to 
say thank you to all of you for the work that you do and the 
people that you serve on behalf of all the Members of Congress 
and of all of our families.
    So thank you very much.
    Chief Lanier. Thank you.
    Chairman Waxman. Thank you, Mr. Lynch.
    Now to Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate and thank you for holding this 
hearing.
    As a former mayor of a small town and a chairman of a 
county of 3 million, I supervised law enforcement for small and 
large jurisdictions. And it is interesting to see how we have 
reached this day.
    I think, Chief, what year was it that the gun ban was 
implemented in Washington, DC?
    Chief Lanier. 1976, 33 years ago.
    Mr. Bilbray. 1976? And the Supreme Court ruled it was 
unconstitutional. And I think that the concern was now the 
response by the city on this was unconstitutional, because it 
basically took a whole category of firearms and outlawed them. 
And now trying to respond to the fact that as the Constitution 
gives local control to other cities, does not give local 
control to this city, Congress has delegated that authority. 
Can't delegate the responsibility for the results, so that is 
why we are here today.
    Chief, what is the most powerful handguns available to the 
general public in the United States today?
    Chief Lanier. I would have to defer to my gun expert. 
Semiautomatic handguns?
    Mr. Bilbray. No, I said what are the most powerful handguns 
generally? Would you agree that the 44-Magnum----
    Chief Lanier. 44, 45.
    Mr. Shelton. I would say the 44-Magnum.
    Mr. Bilbray. 357-Magnum?
    Mr. Shelton. Very close.
    Mr. Bilbray. Are most of those revolvers?
    Mr. Shelton. Yes.
    Mr. Bilbray. And that has traditionally been the fact.
    Chief, what is the difference when you pull the trigger of 
a double-action revolver and you pull the trigger of a 
semiautomatic pistol?
    Chief Lanier. A single-action releases, fires----
    Mr. Bilbray. Double-action, I am sorry.
    Chief Lanier. The difference is firing one round with a 
single action of the trigger versus firing multiple rounds with 
the action of a trigger.
    Mr. Bilbray. In other words, if I had a Beretta or a Colt 
45, and I pull the trigger once on one of those, it would 
continue to fire, or would it only discharge one round?
    Chief Lanier. No, it would only discharge one round.
    Mr. Bilbray. And what would be the results of the 44-Mag or 
the 357 if I pulled the trigger once with a double action?
    Chief Lanier. One round.
    Mr. Bilbray. One round. So it is basically the same. Every 
time you pull the trigger, you get one round out there. You 
don't spray the neighborhood with bullets, right?
    Chief Lanier. Correct.
    Mr. Bilbray. OK. Your concern was the fact that with the 
semiautomatic is the issue of how large a clip may be legally 
produced or may be possessed to be able to go with a 
semiautomatic, right?
    Chief Lanier. Correct.
    Mr. Bilbray. You were how many years in law enforcement, 
Chief?
    Chief Lanier. 18.
    Mr. Bilbray. 18. Maybe because I have been around doing 
this for over 30, I may be dating myself now. In those 18 
years, did you carry a revolver as your side arm?
    Chief Lanier. No.
    Mr. Bilbray. OK.
    Gentlemen, any of you?
    Chief Morse. I did.
    Mr. Bilbray. OK.
    Mr. Hay. I did as well.
    Mr. Bilbray. Do you have experience with the use of a speed 
loader with the revolver?
    Chief Morse. Yes, I did.
    Mr. Bilbray. How long does it take you to reload a revolver 
with a speed loader?
    Chief Morse. I was pretty proficient, so----
    Mr. Bilbray. A couple seconds?
    Chief Morse. A couple second, I would say, yes.
    Mr. Bilbray. Couple seconds. My point is that the 
assumption that a revolver somehow can fire so many bullets 
continuously over a period of time as opposed--I mean that an 
automatic, semiautomatic can continue to spray bullets when a 
revolver, if it has a speed loader system available, can do not 
only that but probably more only because they have the ability 
to continue the rotation in a very fast way.
    And Chief, I appreciate the fact that you are at a 
disadvantage because you weren't trained in the use of a 
revolver with a speed loader, but I think the argument against 
the semiautomatic pistol really gets neutralized when you 
realize there is--the availability of a speed loader 
neutralizes that whole thing.
    So what we are talking about is in D.C., Washington is 
talking about having the most powerful handguns available, is a 
revolver, but not if they are semiautomatic.
    The question, Ronald Reagan's shooting, what kind of 
firearm was used to shoot Ronald Reagan?
    Chief Lanier. That was a revolver, 38.
    Mr. Bilbray. It was a revolver.
    At that time, was it illegal to possess handguns in D.C.?
    Chief Lanier. It was--illegal to carry.
    Mr. Bilbray. How did that happen within the jurisdiction of 
the Federal District if it was outlawed and legal possession 
was denied within D.C.? How did the Hinckley situation occur? 
Where did he get his gun? How did he perform this while this 
law was in effect?
    Chief Lanier. He violated the law. He was a criminal.
    Mr. Bilbray. OK.
    How many murders have been committed with handguns since 
the ban was put in? Anybody know?
    Chief Lanier. I don't know off the top of my head.
    Mr. Bilbray. I think we are talking about roughly about 
6,000, I think.
    Ms. Norton [presiding]. The gentleman's time has expired.
    The gentleman's time has expired.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Madam Chairman.
    Thank you all for your testimony here today. You know, 
everybody on this committee and this Congress is for giving 
people more local control and local decisionmaking until it 
comes to the District of Columbia, when everybody decides to 
substitute their judgment for the people of the District of 
Columbia based on the recommendations of those who are charged 
with law enforcement authority in the District of Columbia.
    Now, I don't think anybody on this panel would dispute the 
fact that the District of Columbia now has to conform its law 
to the recent ruling of the Supreme Court based on this 
provision. No one disputes that, right?
    OK. So the issue here, and I think it is important for 
people around the country to understand, is the District of 
Columbia understands it has to have a new law that conforms to 
the Supreme Court ruling. The question is whether or not they 
have the ability, the people of this city, based on 
recommendations of law enforcement, to enact that law based on 
democratic principles. And what we have today is a bill that 
says, no, you can't do that; the people of this city cannot 
exercise their democratic rights in this area because we are 
going to big foot them, and the Congress is going to come in. 
And in fact, we are going to prohibit you from passing laws to 
regulate guns that have been adopted by the surrounding States, 
including my State of Maryland and including the State of 
Virginia. Because there is a provision in this bill that reads 
the District of Columbia shall not have the authority to enact 
laws or regulation that discourage or eliminate the private 
ownership or use of firearms. And the word ``discourage'' there 
is obviously very ambiguous. And I don't know if you have had a 
chance to have your lawyers look at it, but in the State of 
Virginia, as in the State of Maryland, we have limitations. For 
example, we have a one-gun-a-month limitation. We say that you 
can't purchase more than one gun a month.
    Under your reading of this law, would that prohibit the 
District of Columbia from enacting a statute to limit guns to 
one gun a month? Have you had a chance to look at that issue 
yet?
    Chief Lanier. From what my legal advisers tell me, it is 
very broad language.
    Mr. Van Hollen. Right. I mean, you could easily read 
``discourage'' to say well, that would discourage people from 
getting as many guns as they want, right? It would.
    Chief Lanier. Right.
    Mr. Van Hollen. And so you wouldn't have that authority. 
Then there is the provision in here that says we are going to 
eliminate the anti-gun trafficking laws, the laws in this 
country that prohibit transport of guns across State lines. Do 
you know of--is there any other jurisdiction in this country 
for which that prohibition, Federal prohibition, would be 
eliminated?
    Chief Lanier. Not that I am aware of.
    Mr. Van Hollen. All right. So now if you are a resident of 
the District of Columbia you can cross the line into my State 
of Maryland or the State of Virginia, you can buy a gun there 
and bring it across the state--the D.C. state line without any 
limitation. Isn't that right?
    Chief Lanier. Correct.
    Mr. Van Hollen. OK. So let me ask you, with respect to 
registration, we know that is expressly prohibited here. 
Assault weapons, expressly prohibited. From a law enforcement 
perspective, is there any reason you can see why the District 
of Columbia would be denied the ability to enact local laws 
that it thought were important to protect its citizens, deny it 
the opportunity that other States and jurisdictions are given? 
And in fact, won't it make your job that much harder to do what 
you have to do?
    Chief Lanier. From a law enforcement perspective, that 
significant change in the law would make my job much more 
difficult.
    Mr. Van Hollen. Right. Would it make it harder for you to 
protect the citizens of the United States and visitors here in 
the Nation's Capital?
    Chief Lanier. It would.
    Mr. Van Hollen. Thank you, Madam Chairman.
    Let me just close by saying that again, there is no dispute 
here the District of Columbia has to conform its laws to the 
U.S. Constitution. The question is, you know, what process do 
we use to go about making those changes? And you got a lot of 
people here in Congress that all of a sudden have decided to 
substitute their judgment. And the question is the rights of 
the citizens to enact the laws to protect themselves and the 
safety of this city. This is a mistake, this piece of 
legislation.
    Thank you, Madam Chairman.
    Ms. Norton. Before I call on my friend, Mr. Mica, I would 
like to correct a factual error that has been made throughout 
this hearing, not by the prior speaker. There has been some, 
perhaps not deliberate, attempt to belittle the presence of 
Federal officers here. I would like to make clear that the 
Capitol Police enforce D.C. law in the extended jurisdiction; 
that the Park Police enforce D.C. law throughout the District 
of Columbia. These are Federal police who have been called 
precisely because they enforce both Federal law and D.C. law.
    I am pleased to recognize Mr. Mica.
    Mr. Mica. Well, thank you. And I am glad that you made that 
clear.
    And no one here has a vote on the D.C. Council, do they? 
Yeah. You are executing policy. And I am sorry that you are 
being subjected to some of this, but you know, it is show time 
in Washington right now. But beyond show time, there are some 
basic fundamental questions that need to be resolved. And 
irrespective of what one of my colleagues said, what is 
Congress doing here, he just needs to look at Article I, 
Section A, Clause 17, which does give the Congress of the U.S. 
jurisdiction to oversee the District.
    When I first came to Congress, the District was in total 
disarray. One of the things that I will remember best as a 
Republican is that we took the District over. We put a control 
board in, brought in a chief financial officer. I have kept the 
articles of the disarray of the District. Sometimes you 
couldn't drink the water. One of my favorite stories is the 
Washington Post did a little test, and you could dial 911 or 
you could order a pizza. And the pizza actually came before the 
emergency vehicles. The District building looked like a Third 
World outpost. The mayor I guess had been arrested I guess for 
doing drugs. It was shameful that the Nation's Capital had 
fallen into such disrepair.
    But we took responsibility then, and I am very proud of the 
District. The boarded-up buildings are gone. They were running 
three-quarters of $1 billion deficit. Now they have done much 
better. And the District is a totally different place. And we 
gave it back.
    But I have a fundamental question. And the only thing that 
gets in the way, again, is the Constitution. I remember, too, a 
young man who worked for one of my colleagues who came here and 
had a handgun, and his apartment was broken into. He brought it 
in, didn't realize there was a ban in the District, and someone 
broke in, robbed the thing. He shot him. He was charged, and 
the burglar was let off. And we have come a long way from that 
to the Heller decision, which again would allow people to 
defend themselves. Does anyone know of an instance in which a 
gun was registered someplace else and the person who was 
registered came in and committed a crime in the District?
    Chief Lanier.
    Chief Morse.
    Do you have any----
    Chief Lanier. I would have to research that. Not that I am 
aware of. It is not something that would be brought to my 
attention.
    Mr. Mica. How many murders have there been in the District 
this year?
    Chief Lanier. 129.
    Mr. Mica. How many?
    Chief Lanier. 129.
    Mr. Mica. How does that go to last year?
    Chief Lanier. It is below last year.
    Mr. Mica. It is? This is a great city. Incredible people. 
It has an incredible history. We don't want one murder in this 
District. But the fundamental question is the constitutional 
question, do the citizens have the right to bear arms? And you 
know, some folks want to limit that. Some folks want to expand 
those rights that are given by the Constitution. And I am 
sorry, again, you are subjected to this. Most of the murders, 
though, are done with guns that are illegally obtained, is that 
not correct? Are you aware of that?
    Chief Lanier. Correct.
    Mr. Mica. Correct. And no one knows of an instance where 
one weapon has come in which is legally registered where they 
have committed. Most of the crimes revolve around drug 
trafficking. Is that not true?
    Chief Lanier. I would say the majority of violent crimes, 
yes.
    Mr. Mica. Yeah. Well, I served--one of the subcommittees is 
Criminal Justice Drug Policy, and I saw the slaughter here and 
Baltimore and other places. And the only thing that makes it 
change is zero tolerance. I admire what you did in blocking off 
some neighborhoods. But I think if you just look at what 
Giuliani did in Washington, you could still walk almost 
anywhere in D.C.--I mean, in New York City, day or night in New 
York City with a tough enforcement policy. And that is going to 
be what is going to make a difference, not what you do--not 
what we do with prohibiting or restricting law-abiding citizens 
from having weapons.
    Yield back the balance of my time.
    Ms. Norton. Thank you, Mr. Mica.
    And the last Member to speak is Ms. Speier.
    Ms. Speier. Thank you, Madam Chairwoman.
    You know, I find this bill to be preposterous. And to go 
from a Supreme Court decision that says to the District, you 
have to amend the existing law to this particular measure is 
beyond comprehension. And I think as one of the few Members in 
the House that has actually been shot five times, I can say 
that I think anything like this particular bill is going to do 
nothing but harm in the District.
    Let me ask Chief Lanier this question, you testified that 
there are more than 40 dignitary motorcades a month here in the 
District. Is that correct?
    Chief Lanier. Thirty-five to 40 on average. Foreign 
dignitaries, heads of state that we are responsible for 
protecting, yes.
    Ms. Speier. So, over the course of a year, there is more 
than 500 of these motorcades, some of them not of domestic 
dignitaries but of foreign diplomats and dignitaries. Is that 
correct?
    Chief Lanier. That is correct.
    Ms. Speier. So my understanding is that this NRA bill would 
allow the District of Columbia residents to legally own and 
possess unregistered firearms, including high capacity handguns 
and semiautomatic rifles in their homes and in their 
businesses, and allow them to hold these guns along motorcade 
routes, for instance, legally. Is that correct?
    Chief Lanier. That is correct.
    Ms. Speier. How would this particular bill affect your 
ability to protect these motorcades?
    Chief Lanier. If you have seen a motorcade proceed through 
the District, the lead of all motorcades, the majority of the 
motorcades are led by motorcycle officers from the Metropolitan 
Police Department. Sometimes Capitol Police, Park Police, 
Secret Service. The motorcycles are used in the lead of that 
motorcade because of their agility to move through and stop 
traffic to keep the motorcade moving. It would be--in cases 
that, again, that I cited earlier where attacks on motorcades 
had occurred, it is the use of a firearm to attack those lead 
motor officers, those lead security detail officers in an 
effort to just cause a choke point and slow that motorcade just 
long enough to use another type of weapon to attack typically 
the motorcade or armored vehicle that the dignitary is in. That 
is our biggest concern with motorcade routes and what is known 
to have happened in terms of attacks on motorcades.
    Ms. Speier. So it is safe to say that it would make your 
job more dangerous and endanger those dignitaries as well?
    Chief Lanier. As well, yes.
    Ms. Speier. Let me ask you this basic question that is 
posed by the hearing. Now, after 9/11 we became extremely 
conscious and aware of the kinds of threats that terrorists can 
create, particularly here in Washington, DC. There is no 
question that this city is a target for terrorists. Do you 
think that this bill will help Homeland Security efforts in 
this Nation's Capital or make it more difficult?
    Chief Lanier. I think it will make it more difficult for my 
job as the police chief.
    Ms. Speier. Thank you.
    I yield back.
    Ms. Norton. Thank you very much.
    I want to thank today's witnesses, the Federal witnesses 
who enforce Federal and District law, Chief Lanier, who is a 
member of the team, the Homeland Security team of the Federal 
Government, as well as, of course, the chief of the 
Metropolitan Police force. We appreciate your coming to 
describe the effect of H.R. 6691 on Federal security and law 
enforcement. This hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
